<html>
<title> - THE FUTURE OF LEBANON</title>
<body><pre>[Senate Hearing 106-770]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-770

                          THE FUTURE OF LEBANON

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 14, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-981                     WASHINGTON : 2000


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Barakat, Colonel Charbel, South Lebanon Army; coordinator of the 
  Civilian Committees, South Lebanon Refugees in Israel..........    18
    Prepared statement...........................................    21
Lebanese Information Center, prepared statement submitted for the 
  record.........................................................    31
Pipes, Dr. Daniel, director, Middle East Forum; editor, Middle 
  East Quarterly, Philadelphia, PA...............................    10
    Prepared statement...........................................    13
Walker, Hon. Edward S., Jr., Assistant Secretary of State for 
  Near Eastern Affairs, Department of State, Washington, DC......     2
    Prepared statement...........................................     4

                                 (iii)

  

 
                         THE FUTURE OF LEBANON

                              ----------                              


                        WEDNESDAY, JUNE 14, 2000

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senator Brownback.
    Senator Brownback. The hearing will come to order.
    Thank you all for joining us today. Secretary Walker, 
welcome. Glad to have you back again.
    I would like to say that with my crystal ball, I was able 
to predict a timely hearing and exciting time in the Middle 
East. Unfortunately, we are just lucky to have you here at the 
very moment the succession was taking place in the last bastion 
of the old Middle East and of Syria.
    Although this is a hearing about Lebanon, the death of 
Hafiz al-Asad makes it all the more important that we hold this 
hearing today. We cannot speak about the future of Lebanon 
without discussing Syria's continuing occupation.
    Recent weeks have seen the Israeli withdrawal from Southern 
Lebanon in accordance with United Nations Security Council 
Resolution 425. I expected to see the administration put 
strong, serious pressure on Syria to removes its 30,000 troops 
from Lebanon as well. I am disappointed to see that that has 
not occurred.
    I hope you can enlighten me on the administration's efforts 
to put pressure on Syria to remove those troops from Lebanon. 
It is time that this administration looks at the reality of 
what has been going on in Lebanon for decades.
    Syria has turned Lebanon into a satellite state, with a 
puppet government so demoralized that its leaders will not even 
appeal for their own independence. Syria and its allies in 
Tehran manipulate the Lebanese people with weapons and with 
threats. They pit Christians against Sunni, Sunni against 
Shiite. They sponsor and finance terrorist groups that attack 
Israel and others, operating like parasites on Lebanese soil. 
And that all continues to take place.
    There is no reason the United States should be subjugating 
our national principles again and again in the desperate hope 
for a page in the history books. We do need to stand up for 
democracy for the people of Lebanon and for the people of 
Syria; for an end to occupation for Lebanon; and above all, we 
need to stand for the disarmament of terrorist groups like 
Hizbollah, who do nothing more than exploit the people of 
Lebanon for the benefit of extremists in Damascus and in 
Tehran.
    With all that is going on, our administration witness has a 
quite difficult job, and a difficult time as well. I am happy 
to welcome you here, Assistant Secretary of State Edward 
Walker. It is a pleasure to have you come before the 
subcommittee.
    It almost always seems like we are talking about very 
difficult circumstances. It is a difficult part of the world. 
We look forward to your testimony.
    And we also have two additional witnesses, private 
witnesses: Dr. Daniel Pipes, director of the Middle East Forum, 
and Colonel Charbel Barakat of the South Lebanon Army who will 
also be testifying later on.
    Secretary Walker, thank you for joining us, and I look 
forward to your testimony and our questions and exchange.

STATEMENT OF HON. EDWARD S. WALKER, JR., ASSISTANT SECRETARY OF 
     STATE FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Secretary Walker. Thank you very much, Mr. Chairman. And I 
agree this is a very timely time to consider our policy toward 
Lebanon and Syria, and toward the region as a whole.
    But, actually while difficulties arise from events that 
have taken place, there are also opportunities that arise in 
such occurrences, and we look forward to efforts to try to 
exploit those opportunities in the future.
    I am very pleased to appear before you. After 22 years of 
occupation, during which both Israel and Lebanon suffered many 
casualties and endured constant disruptions of civilian life, 
Israeli forces have withdrawn from Lebanon.
    The United Nations expects to formally confirm the 
withdrawal of Israeli forces from Lebanon, in accordance with 
U.N. Security Council Resolution 425 this week, and we expect 
the Security Council will expeditiously issue a Presidential 
statement endorsing the withdrawal.
    The withdrawal and its aftermath have been relatively 
peaceful. Apart from some sporadic looting and some stone-
throwing by Lebanese youths at the border, South Lebanon has 
remained calm. It will take an active effort from all of the 
players to ensure that calm prevails.
    Hizbollah fighters are in close proximity with Israeli 
forces on the border. This arrangement is clearly not desirable 
now or in the future, and it is critical, but they are not 
the--across the Israel/Lebanon border.
    We do not envision that the death of Syrian President Asad 
will adversely affect the implementation of 425 or the calm 
that now exists in the south, at least in the short-term.
    Security Council Resolution 425 outlines three tasks for 
UNIFIL: To confirm the withdrawal of Israeli forces; to restore 
international peace and security in the south; and to assist 
the Government of Lebanon in ensuring the return of its 
effective authority to the area. With the withdrawal virtually 
complete, the focus now is on the second and third tasks.
    UNIFIL is currently in the process of deploying using its 
present level of forces augmented by several battalions drawn 
primarily from current contributors. UNIFIL units are actively 
patrolling the Lebanon/Israel border area along with military 
observers from the U.N. Troops Supervisory Organization. UNIFIL 
will continue to occupy key points to help maintain stability.
    UNIFIL is working to establish a joint operations center 
with the Government of Lebanon that will coordinate the smooth 
deployment of Lebanese forces. Clearly, Lebanese leadership and 
UNIFIL must work together to ensure that security returns to 
the south.
    We, the United Nations, the French, and indeed many 
Lebanese, have specifically called on Lebanon to deploy its 
Armed Forces in areas vacated by the Israelis. We are pleased 
by the government's recent announcement that it will deploy 
more than 1,000 security and army officers to the south.
    We in the international community believe a strong military 
presence, Lebanese military presence, is crucial to the 
government's re-establishment of its sovereignty and order.
    Lebanon needs to return its effective authority in the area 
to fulfill its responsibilities under Security Council 
Resolution 425. Secretary Albright has been in direct contact 
with Lebanese President Lahoud and Secretary General Annan to 
stress this point.
    The Lebanese Government's ability to consolidate peace and 
security in South Lebanon will depend in large part on its 
success in developing the infrastructure of the area. Economic 
assistance will help Lebanon rebuild after two decades of 
conflict. We believe the United States and the international 
community should support this effort which will benefit the 
region. We will need to work with Congress as we look at ways 
to be helpful.
    As Resolution 425 moves forward, we will continue to press 
ahead with our bilateral agenda with the Government of Lebanon: 
Comprehensive regional peace; stronger business and commercial 
ties; and greater cooperation on counter-terrorism and law 
enforcement issues.
    In the meantime, we continue to support the resumption of 
negotiations on both the Syrian and Lebanese tracks. This 
effort remains a priority of our foreign policy of the Middle 
East. Peace is the best vehicle for change in Syria and in 
Lebanon. We also believe that the Lebanese people, through 
their own democratic process, can make important decisions 
about their future relationship with Syria.
    The Israeli withdrawal from Lebanon is a momentous 
development in the Middle East and a very positive one. The 
border between Lebanon and Israel is quiet for now. We must 
continue to exert every effort to ensure that it remains so, 
first by supporting the U.N.'s efforts to implement Resolution 
425 in a peaceful and orderly manner; second, by garnering 
international support to assist in reconstructing the south; 
and third, by keeping the door open for a comprehensive peace 
settlement between Israel and Syria and between Israel and 
Lebanon. That, ultimately, is our best chance for achieving 
lasting regional peace and stability.
    Mr. Chairman, I will be pleased to take your questions.
    Senator Brownback. Thank you, Secretary Walker.
    [The prepared statement of Secretary Walker follows:]

            Prepared Statement of Hon. Edward S. Walker, Jr.

    Mr. Chairman: I am pleased to appear before you today to discuss 
U.S. policy toward Lebanon following the Israeli withdrawal, a key 
foreign policy issue.
    After 22 years of occupation, during which both Israel and Lebanon 
suffered losses and endured constant disruptions of civilian life, 
Israeli forces have withdrawn from Lebanon. Prime Minister Barak 
pledged during his election campaign to withdraw Israeli troops before 
July 7, 2000, and he has carried out that pledge. The U.N. expects to 
formally confirm the withdrawal of Israeli forces from Lebanon, in 
accordance with UNSCR 425, this week.
    The withdrawal and its immediate aftermath leading up to U.N. 
verification this week have been much more peaceful than many 
anticipated. Our greatest concern was that there would be cross-border 
attacks that would trigger a dangerous escalation of violence affecting 
civilians on both sides. This has not been the case. Apart from some 
sporadic looting that took place immediately following the withdrawal, 
and some stone-throwing by Lebanese youths at the border, south Lebanon 
has remained calm.
    There are several reasons why calm has prevailed thus far. First, 
there was strong international consensus behind Israel's decision to 
implement UNSCR 425, including within the Arab world. U.N. Special 
Envoy Larsen traveled to the region twice for extensive consultations 
with Lebanon, Syria, and Israel. Larsen and his technical team have 
worked assiduously to identify a line, based on the best possible 
cartographic and historical data, for the purposes of confirming the 
Israeli withdrawal. Larsen has done a tremendous job grappling with 
some very difficult issues, and we have urged the international 
community to support his and the U.N.'s efforts.
    Second, both the Syrians and Hizballah have not disrupted the 
U.N.'s efforts to implement 425. Third, the Israelis made it very clear 
that they would retaliate forcefully in the event of cross-border 
attacks, and fourth, the Government of Lebanon dispatched more than 
1,000 police and gendarmes and set up checkpoints throughout the south 
to provide security at the village level.
    We do not believe that the death of Syrian President Asad will 
adversely affect or delay the implementation of Resolution 425 or upset 
the calm in south Lebanon, at least in the short-term.
    There is no guarantee, however, that calm will prevail in the 
future. It will take an active effort from a variety of players to 
ensure that it does. Hizballah fighters are in close proximity with 
Israeli forces on the border. This arrangement is clearly not desirable 
now or in the future.
    UNIFIL deployment into areas vacated by the Israeli's will be a 
keypart of ensuring that calm prevails and that the Lebanese Government 
is able to re-establish its authority there. UNSCR 425 outlines three 
tasks for UNIFIL: to confirm the withdrawal of Israeli forces, to 
restore international peace and security in the south, and to assist 
the Government of Lebanon in ensuring the return of its effective 
authority to the area. With the withdrawal nearing completion the focus 
now is on the second and third tasks.
    Once the U.N. confirms the withdrawal of Israeli forces in 
accordance with Resolution 425, UNIFIL can begin to deploy in earnest. 
UNIFIL has already established a limited presence in the mission area 
through active reconnaissance and mobile patrols, and some units are 
patrolling the border along with military observers from the United 
Nations Truce Supervisory Organization (UNTSO).
    UNIFIL has approximately 4,600 troops deployed in a 1,000 square 
kilometer area in south Lebanon and is organized into six national 
battalions from Fiji, Finland, Ghana, India, Ireland, and Nepal. 
France, Italy, and Poland also provide personnel to assist UNIFIL 
headquarters operations. As UNIFIL meets its responsibilities under 
425, the force may expand to 5,500 troops, to be drawn primarily from 
existing UNIFIL contributors.
    Clearly, UNIFIL must work closely with the Government of Lebanon to 
implement its responsibilities. UNIFIL will continue to occupy key 
points to help maintain stability. These tasks require active 
coordination with the Lebanese army. UNIFIL is working to establish a 
joint operations center with the LAF that will ensure the smooth 
deployment of GOL forces.
    In spite of its expanded presence in the south thus far, the 
Government of Lebanon will need to do more to re-establish its 
effective authority there. Secretary Albright has stressed this point 
with Lebanese President Lahoud and Secretary-General Annan, and we will 
continue to do so. The recent announcement by the Government of Lebanon 
that it would deploy a strike force to the south consisting of 1,000 
security and army personnel is a positive step.
    The Lebanese Government's ability to consolidate peace and security 
in south Lebanon will depend in large part on its success in developing 
the infrastructure of the area and creating jobs for young men who 
heretofore have carried arms. Economic assistance will be critical in 
helping Lebanon rebuild after two decades of conflict. We believe the 
international community should support this effort, which will benefit 
the region as a whole. We will work with Congress as we look at ways to 
be helpful.
    As Resolution 425 moves forward, we will continue to press ahead 
with our bilateral agenda with the Government of Lebanon: comprehensive 
regional peace, stronger business and commercial ties, and greater 
cooperation on counter-terrorism and law enforcement issues. In 
pursuing these goals, we hope to promote greater democratization as a 
means of giving the Lebanese a stronger role in managing their own 
affairs.
    In the meantime, we continue to support the resumption of 
negotiations on both the Syria and Lebanon tracks. This effort remains 
a priority of our foreign policy in the Middle East. Peace is the best 
vehicle for change in Syria and Lebanon. We also believe that the 
Lebanese people, through their own democratic process, can make 
important decisions about their future relationship with Syria.
    The Israeli withdrawal from Lebanon is a momentous development in 
the Middle East and a very positive one. The border between Lebanon and 
Israeli is now quiet. We must continue to exert every effort to ensure 
that it remains so, first by supporting the U.N.'s efforts to implement 
Resolution 425 in a peaceful and orderly manner, second by garnering 
international support to assist in reconstructing the south, and 
finally by keeping the door open for a comprehensive peace settlement 
between Israel and Syria and between Israel and Lebanon. That, 
ultimately, is our best chance for achieving lasting regional peace and 
stability.

    Senator Brownback. The United States granted military 
equipment to the Lebanese Armed Forces [LAF], with the 
understanding that the LAF would secure Southern Lebanon after 
Israeli withdrawal. Now, you noted some promise in the future 
of moving 1,000 soldiers into that region. However, what 
happened right after the Israeli pullout, Hizbollah fighters 
filled the vacuum.
    Will military sales to Lebanon cease if the Lebanese Armed 
Forces do not secure the south?
    Secretary Walker. Mr. Chairman, I think that the key here 
is to get the Lebanese Armed Forces to move south in greater 
numbers. Both U.N. Security Council Resolutions in the past 
have called for the Lebanese Army to move to the border, and to 
secure it.
    The Secretary has been pressing the Lebanese, along with 
other members of the international community, particularly the 
French, to move the army south. We think it is a good first 
step to have those strike forces established which have those 
elements of the army in it.
    The Lebanese Security Forces and the army combined should 
be able to do a reasonable job of filling the vacuum, but it is 
not enough. We are going to continue to press to do so, so 
that, indeed, organizations like Hizbollah will not be able to 
fill this vacuum.
    And I might add that it is also important that the 
reconstruction efforts take place under the auspices of the 
Lebanese Government, so that it can gain the support and the 
loyalty of the people of the south, and the economic 
improvement of their conditions as well.
    Senator Brownback. Well, Secretary, this is not a surprise, 
that the Israelis were pulling out of South Lebanon. It was 
announced. It was stated that they were going to do it, ``This 
is going to happen.''
    Why did not the Lebanese Armed Forces move in immediately 
or have the plans to move into the region? Was the 
administration pressing them to move into the region 
immediately after the Israeli withdrawal?
    Secretary Walker. Yes, we were, and we have made that very 
clear. I think that, first, there were some doubts in the minds 
of both the Lebanese and the Syrians as to whether there was 
sincerity on the part of the Israelis. We never had any doubt 
of that. We knew the minute that Prime Minister Barak made the 
pledge in his election campaign, that he was serious about it 
and he would go forward with it.
    It took some time for that message to sink in in Lebanon. 
We have been pressing the Lebanese Army to prepare for this 
eventuality. They, for their own internal political reasons and 
for the reasons of their relationship with Syria which you know 
very well about, had had doubts about moving an army in in full 
measure. We think those doubts have been resolved now, and we 
expect that they will fill that vacuum.
    Senator Brownback. Why so late? I mean, is this not going 
to be much more difficult to do at this point in time rather 
than earlier, right after the Israelis pulled out?
    Secretary Walker. No question about it, Mr. Chairman. Our 
preference would have been to have contact re-employment in 
effect, with the UNIFIL actively engaged as well.
    But the process came a bit earlier than was expected for 
the actual withdrawal. It was not announced in advance 
precisely. We knew that it would take place before July 7, but 
we did not know precisely when. Contact withdrawal was not 
possible.
    I think that the situation in the south, however, still 
lends itself to full Lebanese Government control and authority 
in the south, and that is our objective.
    Senator Brownback. Will the U.S. Government stop sales of 
military equipment to Lebanese Armed Forces if they do not 
fully deploy and secure the south?
    Secretary Walker. Mr. Chairman, I am not sure precisely 
what is in the works on the military side of assistance with 
the Lebanese. We have a program of economic support. I do know 
that the Lebanese Army has improved immensely in the last 3 to 
5 years in its ability to enforce its authority in the region.
    And assuming that we are able to encourage the army to move 
south, and to the extent that the internal security forces are 
able to provide the security, I hope and it is our expectation 
that this issue will not arise. But I want to stress that it is 
not just a question of the army.
    There are Lebanese Security Forces which have the precise 
mission of providing internal security in Lebanon. Those forces 
are also important in providing for government authority, as 
well as the movement. And almost as important, is the movement 
of the various ministries to the south, and the various 
authorities of Lebanon to the south to provide the services 
that the Lebanese people should have the right to expect.
    Senator Brownback. Well, I agree that Lebanon has the right 
to expect it. I think there is a real difference between us 
talking and saying, look, you guys ought to be doing this. The 
Lebanese Armed Forces should be securing the south, and us 
saying, if you do not take these steps aggressively, we are 
going to have to take steps to press this issue with you.
    Secretary Walker. No question, Mr. Chairman, we will press 
the issue. But at this point, we have no reason to believe that 
the Lebanese Government will build a vacuum in the south.
    Senator Brownback. I would look at it from the other side. 
I don't have much confidence that they will, given that the 
Hizbollah has taken a position in the south. It seems like that 
they missed their grand opportunity to do the right thing, and 
what should make me believe now that they will back up and do 
it when it is more difficult?
    Secretary Walker. Mr. Chairman, I will make it very clear. 
You and I have the same concern. We think it is a very 
dangerous position to have the Hizbollah cheek-by-jowl against 
the border with the Israelis. We think it is very important 
that the Hizbollah not be in such a position now or in the 
future.
    Our efforts will be to engage the Lebanese Government in 
changing that situation, and ultimately in disarming all the 
factions that are in the area that act as an infringement on 
Lebanese sovereignty and on the government's authority in the 
region. Those are our objectives, and we share your deep, deep 
concern in this matter.
    Senator Brownback. I hope as well if Hizbollah strikes 
across the border at the Israelis, that the administration--as 
I have stated on the floor, if Israel should see fit to respond 
as it needs to to protect its sovereignty, to protect its 
security, I would hope the administration would have a similar 
position.
    Secretary Walker. The administration has the precise exact 
position, Mr. Chairman.
    Senator Brownback. Well, I am just concerned that this is 
not a development going forward the way that either of us would 
have hoped. I think we need to put stronger messages with your 
words, saying, ``These actions, these consequences will follow 
if the Lebanese Armed Forces do not deploy in the region,'' 
because they are going to have difficulty in turn in dealing 
with Hizbollah, a great deal of difficulty.
    And without pressure from us, from outside, of real 
consequences, I do not know what truly causes them then to act 
to overcome those significant domestic pressures that they are 
going to have, and significant pressures from the Syrians that 
they have.
    I am curious to note, turning to the events of the day--in 
the future of Syria, the administration's position of whether 
they support the ascendency of the second dictatorship of Asad 
into Syria, what the administration's view would be there.
    Secretary Walker. Mr. Chairman, we are not going to take a 
position on who should run Syria. That is up to the Syrian 
people to pursue.
    However, I can assure you that we do take a position on the 
policies of Syria, and whether they are constructive or not 
constructive. And it is our hope that a new leadership in Syria 
would recognize that terrorism is not in Syria's long-term 
interest, that its closed economy is not in Syria's long-term 
interest, and that the peace process is in Syria's long-term 
interests.
    And those, in addition to the questions of human rights, 
would be the issues that we would have on the forefront of our 
discussions with the new leadership once it comes into 
authority.
    Senator Brownback. When will those communications take 
place? I would presume after some period of time.
    Secretary Walker. The constitution, as you know, is amended 
in Syria to lower the age of the leadership to 34.
    Senator Brownback. I noted earlier, they did that with 
quite dispatch.
    Secretary Walker. Yes, I understand that. That is very 
efficient, Mr. Chairman. I think I prefer our system, though.
    Senator Brownback. Well, I think I do, too. It has a few 
more safeguards and a few----
    Secretary Walker. Yes. But I understand that the parliament 
will be meeting on July 25, and at that time, they would be in 
a position to nominate a new President. There would then be a 
referendum among the people to give authority to that decision, 
and at that point, the new leader, whomever that might be--I 
think we have a pretty good suspicion--would take over.
    And at that point, we would be in a position to engage in a 
dialog with a principle emphasis on the subjects I mentioned.
    Senator Brownback. And what would the administration be 
stating to the new leadership in Syria about Lebanon? What 
would be your position? And how will you intend to press this 
with the Syrians? What leverage will you intend to use with the 
Syrians?
    Secretary Walker. Well, our position has been staked out 
for a long time on this question, and it goes quite far back in 
history. We call for the strict respect of the sovereignty, the 
territorial integrity, the unity, the political independence of 
Lebanon under the sole and exclusive authority of the 
Government of Lebanon. And we continue to press for a 
resolution for the problem of Lebanon.
    We would urge the Syrians to respect that call, the call 
that, I might add, was agreed to in the Taif Accords which were 
put into effect, and have never been completely applied to the 
situation in Lebanon. And obviously, it was a complicating 
factor to have during the period when the Israeli occupation 
took place in southern elements of Lebanon. That is no longer 
an impediment. So we would like to see the Taif Accords pursued 
and fulfilled in all of their aspects.
    Senator Brownback. What leverage will you use against the 
Syrians to try to implement them pulling out and not supporting 
Hizbollah within Lebanon?
    Secretary Walker. Mr. Chairman, there are two forms of 
leverage. One is positive, and one is negative. We have already 
negative leverages in force with sanctions. We have options of 
increasing those sanctions if necessary.
    But we like to hope that there will be a change in the 
attitude and approach of the leadership of Syria toward issues 
such as terrorism, particularly; and that they will engage 
constructively in the peace process, recognizing they have 
national interests; and that indeed, there will be a 
modification in attitude toward Lebanon.
    Now, it is also a Lebanon issue, the question of Lebanese 
and Syrian forces. The Syrians have 30,000 troops in there and 
scattered around in a few other places. Regarding the Lebanese, 
up till now, the government has said it is not timely for these 
troops to leave because of the internal security situation.
    With the Israeli departure, we expect that the situation 
will be more conducive to the departure of those troops, that 
the Lebanese Government will be able to exert its authority in 
the south and will control more of its own country. And this 
should give it the authority and capability to move forward 
with the request that the Syrian forces leave.
    Senator Brownback. I guess, Mr. Secretary, if you look at 
the overall situation, and for years there has been a huge, if 
you would consider it that way, a logjam in Lebanon with the 
pieces stuck in place. And the Israelis pulled out in quite a 
strong move that did take place, new leadership in Syria, it 
would certainly appear to be a moment here that things could 
radically change for the better.
    It might not, but it would seem that this would be one of 
those moments where you apply the maximum leverage that you 
can, both positive and negative, to press this on through to 
change the dynamic that is occurring, that has been in place in 
Lebanon for some period of time, and that this would not be a 
moment to be timid about ``We are going to use this sort of 
leverage or that sort of force.''
    Secretary Walker. Mr. Chairman, I agree with you on this. I 
think there are opportunities, serious opportunities, for some 
change, both in the nature of the approach that Syria has taken 
toward the world and toward its own internal problems and 
toward the question of security and stability and independence 
of Lebanon.
    I might point out, for example, that the Syrian economy is 
in desperate need of change. That change will depend on an 
opening to the outside world. That opening will depend on Syria 
adopting a different attitude toward questions such as 
terrorism.
    At this point, the Syrian gross national product is about 
$900 per capita. In Lebanon, it is $4,000 per capita. There is 
a desperate need for change. We can help in that change. We can 
make a positive contribution, but it is going to depend on 
other elements of the Syrian behavior. So as I say, there are 
both positive and negative levers that are available.
    Senator Brownback. Has Israel requested any increased 
military assistance from the United States to compensate for 
the loss of its buffer zone in Lebanon?
    Secretary Walker. Within the existing foreign military 
funds that have been available to Israel, we have designated 
$50 million to assist them in removing and changing some of the 
locations. This is within existing FMF funds. No additional 
funds have been requested.
    What they have requested is that there be a Corps of 
Engineers contract, U.S. Army Corps of Engineers contract let 
with the $50 million. The Corps will then put contracts up for 
bid. Both Israeli and American companies will be eligible to 
bid on those contracts. And that would be an element of 
assistance to the Israelis, but there is no additional money.
    Senator Brownback. This may be a speculation, but if Syria 
were offering agreement that would solidify Syrian control over 
Lebanon in return for some sort of peace with Israel, what 
would the administration's position be? Would they oppose this?
    Secretary Walker. Mr. Chairman, we actually think the 
opposite is the case. We believe that in the situation of peace 
agreements between Syria and Israel, and Lebanon and Israel, 
there is the real opportunity for obtaining the full 
territorial independence and integrity of Lebanon.
    We see that as part of the solution, not part of the 
problem. But our position is very clear. We are not in the 
business of selling Lebanese sovereignty to anybody for any 
purpose.
    Senator Brownback. So, the administration would oppose.
    Secretary Walker. Absolutely.
    Senator Brownback. Thank you. Thank you very much, 
Secretary Walker, for a timely presentation and discussion, and 
responding to my questions. A lot of people use the technique 
of, well, OK, I will answer your question over a 3- or 4-minute 
time period, so the questioning does not go very fast. I 
appreciate your willingness to respond directly and quickly.
    And I hope you will press this as you stated here with all 
speed, and ability, and all leverage that you have because it 
does strike me as a real moment that we have to really change 
the dynamic. Best to you.
    Secretary Walker. Thank you very much, Mr. Chairman. I 
appreciate your comments.
    Senator Brownback. Thank you.
    The second panel will be Dr. Daniel Pipes, editor of the 
Middle East Quarterly, Philadelphia, Pennsylvania. And the 
second presentation will be Colonel Charbel Barakat of the 
South Lebanon Army, Lebanon.
    Dr. Pipes, welcome back to the committee. We are delighted 
to have you here again on such a timely issue as the future of 
Lebanon when we see the circumstances changing around us. All 
of us appreciate your insights and your thoughts, and I 
appreciate your coming here to share those with the committee 
today.

  STATEMENT OF DR. DANIEL PIPES, DIRECTOR OF THE MIDDLE EAST 
     FORUM; EDITOR, MIDDLE EAST QUARTERLY, PHILADELPHIA, PA

    Dr. Pipes. Thank you so much, Mr. Chairman. I am delighted 
to have this opportunity to discuss Lebanon with you.
    My focus will be on the aspect of this subject that I know 
best, namely the Syrian occupation of Lebanon. I shall explain 
the reason for the occupation, the implications, the dramatic 
developments in the last month, and then provide an overview of 
U.S. policy and give a couple of policy recommendations--all in 
5 minutes, I hope.
    First, with the collapse of the Soviet bloc, Lebanon has 
the unhappy distinction today of being the only satellite state 
in the world. The origins of the situation go back to 1920 when 
the French Government carved out a greater Lebanon that met 
with considerable opposition in Syria. That opposition finally 
could manifest itself in 1975 when the war broke out in 
Lebanon, and the Syrians had between 1975 and 1990, an 
opportunity to take over that country, which they did do.
    It somewhat resembles the Iraqi occupation of Kuwait that 
followed in 1990, but the Iraqi occupation was very fast, very 
brutal, very obvious. The Syrian occupation was slow, careful, 
and subtle.
    The Syrian Government displays many levers of power in 
Lebanon. It has troops, intelligence agents, and a significant 
number of Syrian nationals living in that country.
    Control of Lebanon brings the Syrian Government many 
benefits. As you can imagine, and as you yourself pointed out 
and also Secretary Walker pointed out, Lebanon has a much 
higher per capita income than Syria. There are economic 
opportunities. There is drug trafficking. The lively press that 
existed in Lebanon has been closed down. It is a place where 
the Syrian Government can tangle with its adversary Israel 
without the stakes being too high. It is a place for terrorist 
proxies to work out of.
    Curiously, the Syrian occupation of Lebanon is by its own 
lights, illegal, for the Syrian Government has on three 
occasions concurred with decisions that required them to leave 
Lebanon, and yet it is still there.
    The occupation has taken a toll on Lebanon. What had been 
the most open of the Arabic-speaking countries, boasting 
decentralized power, real democracy, rule of law, unimpeded 
movement in a Hong Kong-style free market, independent schools, 
and an unfettered press has turned into something like a minor 
version of the totalitarian state of Syria, with a more 
powerful central government, increasing lack of the rule of 
law, less and less freedom of movement, imposed school 
curricula, and a declining economy.
    The Lebanese population has responded with very negative 
attitudes toward this Syrian occupation. All of our data 
suggests that across the board, all the communities of Lebanon, 
despite the many other differences, agree on the undesirability 
of continued Syrian occupation. However, because of the strong-
arm of the Syrian occupiers, they have, in general, not been 
able to express these views, although from time to time there 
has been an eruption of violence against the occupiers.
    The timeliness of our discussion today is due to the two 
major changes that took place within the last few weeks: First, 
the Israeli pullback from Southern Lebanon, and second, the 
death of President Hafiz al-Asad on Saturday, just 4 days ago.
    But even before these developments took place, they have 
been in the making. As you noted earlier, Senator, the Israelis 
already announced a year ago they would be leaving, and the 
President of Syria's health has been declining for some time.
    Accordingly, there has been movement in Lebanon that 
preceded the last few weeks. Perhaps the opening salvo of this 
was on March 23 of this year when a prominent editorialist and 
journalist in Lebanon wrote, an open letter to the son of the 
Syrian President, in which he said, ``We do not want you 
here.''
    There have also been some acts of violence against Syrians 
in Lebanon. There have been some protests, street protests, 
which led to labor unions and university students taking to the 
street. The Syrian troops abandoned some of the more obvious 
checkpoints and other deployments and moved back, and became a 
little more subtle. Some of the leading religious figures of 
the country spoke out, both Christian and Muslim.
    So it has been already even before the last few days, a 
process in movement. I predict that there will be a hot summer 
in Lebanon, and far more important than that, I anticipate a 
day when Lebanon will again be a free country without the 
Syrian yoke on it, and a sovereign government will rule.
    The international responses have been interesting. The 
Clinton administration has never specifically called for Syrian 
troops to withdraw from the country of Lebanon. It has instead 
contented itself with a vague appeal for ``all foreign forces'' 
to leave the country.
    This has been the case even most recently. Perhaps the most 
dramatic conversation was just a week ago when Secretary 
Albright met with the Syrian Foreign Minister in Cairo. 
According to press reports, she did not raise the issue of 
Syria's occupation of Lebanon. In public, she actually praised 
it: ``Syria has played a constructive role as far as Lebanon is 
concerned. We hope that they will continue to do so.'' The best 
she could do was to avoid mentioning the Syrian troops by name, 
and instead resort to the tired old formulation that ``all 
foreign forces must depart.''
    The Syrian authorities, not surprisingly, responded to this 
weak advisory by saying they had every right to be there. They 
were invited in by the Lebanese Government, and they do not 
need the blessing of the United States.
    In contrast with this record of collusion that the 
administration has compounded, Congress has been forthright and 
repeated in its condemnation. In 1993, 1995, 1997, over and 
over, the Congress has been one of the few major voices to 
condemn the Syrian occupation.
    It has also been good to see that, of late, other 
organizations have spoken up: human rights groups, major media, 
and the United States, and I might add that my own organization 
just last week published a study group report calling for the 
end of Syrian occupation. I am pleased to note that Chairman 
Helms was a signatory to that report. It is available to anyone 
in this room after the hearing.
    The U.S. Government faces a fundamental choice vis-a-vis 
Lebanon: To accept or contest the Syrian domination there. 
Operationally, that means either working with the constituted 
government or ignoring it. I think there is, in the end, no 
choice. We must stand in solidarity with the oppressed against 
the oppressors, as we have done so many times around the world.
    Beyond the moral position, this stance is also very 
important, practically speaking. The people who would take 
action against the Syrians are much emboldened when they feel 
they have the U.S. Government's support.
    Finally, I urge you, the Congress, to do all that you can 
do to condemn and repulse the Syrian occupiers. Toward this 
end, you can take several steps.
    First, you can use your bully pulpit and simply say, ``All 
Syrian forces must leave Lebanon.'' Second, you can pressure 
the executive branch to show some spine as you have done in the 
past. Third, you can close the national interest loopholes that 
permit the executive branch to waive various regulations, which 
it has done frequently. Fourth, you can take initiatives such 
as funding a Radio Free Lebanon.
    And finally, so long as the Syrian occupation continues, do 
not fund the Government of Lebanon including its Armed Forces, 
because that money--money is fungible, and it in the end 
supports the Syrian occupation. You should appropriate funds 
only to credible private organizations and institutions.
    Thank you so much, Mr. Chairman.
    Senator Brownback. Thank you very much, Dr. Pipes. As 
usual, that was a good, quick, clear analysis, and clear policy 
recommendations are always very helpful to have.
    [The prepared statement of Dr. Pipes follows:]

                 Prepared Statement of Dr. Daniel Pipes

    Thank you, Mr. Chairman and Members of the Committee, for this 
opportunity to discuss Lebanon. My focus will be on the aspect of this 
subject that I know best, namely the Syrian occupation of that country. 
I shall explain the reason for the occupation, its implications, and 
the dramatic impact of two recent developments (the Israeli force 
withdrawal and the death of Syria's President Hafiz al-Asad). I will 
conclude with an overview of past U.S. policy and some policy 
recommendations.
                         the syrian occupation
    With the collapse of the Soviet bloc, Lebanon has the unhappy 
distinction of being the world's only remaining satellite state. Its 
government boasts the trappings of sovereignty--a flag, an independence 
day, a constitution, membership in the United Nations--but little or 
none of its substance. In fact, all the country's major decisions are 
made in Damascus, Syria.
    The origins of this situation go back to the beginning of the 
century now ending. In 1920, when the French government carved modern 
Lebanon out of Syria, this met with considerable opposition in Syria, 
where Lebanon was seen as provinces of Syria. That opposition persisted 
through the next two generations. Only with the outbreak of Lebanon's 
civil war in 1975, however, did the Syrian authorities find an 
opportunity to act on their intention to get Lebanon back. Their 
takeover of the country occurred step by step, climaxing in 1990 with 
the domination of some 90 percent of the country.
    Though achieved with far greater subtlety and skill, Hafiz al-
Asad's takeover of Lebanon closely resembled Saddam Husayn's occupation 
of Kuwait. In both cases, the dictator of a powerful totalitarian state 
exploited an old irredentist claim to justify the subjugation of a 
small, free, and Western-oriented neighbor. The major difference is one 
of finesse: in contrast to Saddam's crude and brutal invasion, Asad 
prepared the way by sponsoring a range of Lebanese dissident groups, 
had himself invited in by bona fide Lebanese leaders, and then over a 
fifteen-year period gradually incorporated portions of the country.
    Asad disposed of many levers of power in Lebanon. An estimated 
40,000 Syrian troops and uncounted political and intelligence agents 
maintained a formidable presence throughout the country, plus hundreds 
of thousands of Syrians moved there.
    Control of Lebanon brought Asad many benefits. It marked a 
significant step toward bringing all of ``Greater Syria'' under 
Damascus's direct control, one of his long-term aims. It permitted him 
to stamp out the press criticism and political intrigue that once came 
out of Beirut. Lebanon provided his officials with an annual income 
from drug trafficking estimated in the hundreds of millions of dollars, 
maybe more. It provided employment for as many as a million Syrian 
workers and offered a protected market for Syrian products. It gave 
Asad control of a second voice in Arab councils and the peace process. 
It presented a way for him to tangle with Israel without endangering 
his regime; the two sides have tacitly agreed to reserve total war for 
the Golan Heights and engage in lesser skirmishes in Lebanon. More 
ominously, control of Lebanon also provided a convenient venue for 
housing terrorist proxies by keeping them under Syrian control but 
outside of direct Syrian responsibility.
    Curiously, by the Syrian government's own lights, its occupation of 
Lebanon is illegal. Damascus has on three occasions concurred with 
decisions made by other bodies that Syrian troops should leave Lebanon. 
It first agreed to withdraw the troops in October 1976 as part of the 
Riyadh-Cairo accords.\1\ In September 1982, it signed the Fez 
Declaration that committed it to ``start negotiations'' with the 
Lebanese government about ``an end to the mission of the Arab deterrent 
forces in Lebanon [i.e., the Syria troops].'' \2\ Finally, in October 
1989, Asad accepted an agreement hammered out by the Lebanese 
parliament (the Taif Accord); Christians supported a revision of the 
Lebanese government structure and in return he said that Syrian troops, 
within two years of some conditions being met, would be redeployed from 
their positions in Beirut to the Bekaa Valley.\3\ Those conditions were 
all fulfilled in September 1990; but September 1992 came and went 
without any change. Theodor Hanf, a leading German scholar of Lebanon, 
dubs this a ``blatant violation'' of the Taif Agreement.\4\
---------------------------------------------------------------------------
    \1\ Specifically, Damascus agreed to ``the withdrawal of armed 
elements to the places they occupied before April 13, 1975, and to 
remove all armed manifestations.'' For the text of the document in 
English, see Subcommittee on Europe and the Middle East, Committee on 
Foreign Affairs, U.S. House of Representatives, The Search for Peace in 
the Middle East: Documents and Statements, 1967-79 (Washington: U.S. 
Government Printing Office, 1979), pp. 336-37.
    \2\ For the text of the declaration in English, see John Norton 
Moore, ed., The Arab-Israeli Conflict, vol. 4, The Difficult Search for 
Peace (1975-1988), part 2, pp. 1154-56.
    \3\ For the text of the accord in English, see Dilip Hiro, Lebanon 
Fire and Embers: A History of the Lebanese Civil War (New York: St. 
Martin's, 1993), pp. 231-40.
    \4\ Theodor Hanf, Coexistence in Wartime Lebanon: Decline of a 
State and Rise of a Nation, trans. from German by John Richardson 
(London: I.B. Tauris, 1993), p. 636.
---------------------------------------------------------------------------
                        implications for lebanon
    Occupation has had many consequences for Lebanon. Until 1975, it 
was the most open of all the Arabic-speaking countries, boasting 
decentralized power, real democracy, rule of law, unimpeded movement, a 
Hong Kong-style free market, independent schools, and an unfettered 
press.
    Under Syrian control, however, the central government in Beirut has 
gained in authority, rendering recent parliaments, according to Hanf, 
``the least representative in Lebanese history.'' \5\ Syrian operatives 
function almost entirely outside the rule of law (for example, they 
routinely make arrests without warrants) leading Human Rights Watch to 
conclude that ``the record of violations in Syrian-controlled Lebanon 
has been worse than in Syria.'' \6\ Freedom of movement ended when 
Syrians decided who comes into the country and who goes out. Asad's 
regime has sought to impose Syrian-style standards on the school 
curricula, including the requirement that Arabic and Islam be taught. 
It brought the free-wheeling Lebanese economy more in line with that of 
statist Syria and created organic links between the two countries (for 
example, in the electricity grid and in roads), sometimes with an eye 
to their permanent connection (why else was Lebanon forced to convert 
its power stations from petroleum to liquefied natural gas, which 
happens to be imported from Syria?). Cheap Syrian goods are dumped in 
Lebanon. As for the press, Human Rights Watch states that it ``has been 
forced to toe a Syrian-drawn line, leave Syrian-controlled Lebanon, or 
cease functioning.'' \7\
---------------------------------------------------------------------------
    \5\ Ibid., p. 632.
    \6\ Human Rights Watch, World Report 1991, p. 604.
    \7\ Human Rights Watch, World Report 1991, p. 605.567
---------------------------------------------------------------------------
    Perhaps most significant for the long-range future, the Asad regime 
has opened the doors for Syrians to move to Lebanon, seek work there, 
settle there, and sometimes bring other family members to join them 
there. With time, this emigration may profoundly alter Lebanon's 
population by increasing the proportion of peasants and Muslims. Such 
changes have the additional virtue, from the Damascene point of view, 
of making the Christian population, and especially the Maronites who 
are the heart of independent Lebanon, feel less welcome in their own 
homeland. (Nasrallah Sfeir, the Maronite patriarch, has accused the 
Syrians of attempting precisely this.) Lebanese Christians already have 
a century's legacy of emigration; continued Syrianization of their 
country makes them prone to leave their ancestral home in ever-
increasing numbers. Should they do so, Damascus will have cleared the 
major obstacle to its permanent colonization of Lebanon.
    So subservient are Lebanese politicians to their suzerain in 
Damascus, they routinely visit the Syrian capital before making any 
major decision or even to resolve problems among themselves. On some 
occasions, the prime minister surrounded himself with most of his 
cabinet to travel the very 70 miles to Damascus.\8\ Speaking candidly, 
former president Ilyas al-Hirawi once confessed his shame at this 
pattern of behavior: ``We now disagree on the appointment of a doorman 
and go to Damascus to submit the problem to the brothers [there].'' \9\ 
Prime Minister Salim al-Huss sees no end date to the Syria's occupation 
but states that it will last ``as long as the government sees their 
presence necessary.'' \10\ As a former Lebanese diplomat puts it, 
``Everyone knows that Syria controls everything in Lebanon, totally.'' 
\11\ Or, as Uri Sagie, then head of Israeli military intelligence, put 
it, ``Lebanon's dependence on Syria is absolute.'' \12\
---------------------------------------------------------------------------
    \8\ For example, 11 of the 16 ministers joined Salim al-Huss in 
October 1999 as a sign of respect when he went to sign accords on farm 
produce and tourism with Hafiz al-Asad.
    \9\ Ad-Diyar (Beirut), 3 December 1994.
    \10\ United Press International, 6 September 1999.
    \11\ Los Angeles Times, 15 February 1997.
    \12\ Davar, 5 September 1994.
---------------------------------------------------------------------------
    Not surprisingly, the overwhelming majority of Lebanon's 
population--and not just the Christians among them--rejects the Syrian 
occupation. Survey research among Lebanese Sunnis in 1989-90 showed 
that a mere 3 percent of them favored union with Syria. \13\ Anecdotal 
evidence confirms this. As one Lebanese put it a few years ago, ``Syria 
is at the top of the hate list in Lebanon today, much more so than 
Israel. Israel is perceived of only as a military threat while Syria 
threatens Lebanon's very existence.'' \14\
---------------------------------------------------------------------------
    \13\ Hilal Khashan, ``The Lebanese State: Lebanese Unity and the 
Sunni Muslim Position,'' International Sociology 7 (1992): 93. In 
contrast, 86 percent favored a unitary state, 10 percent a federal 
state, and 1 percent chose partition of the country. The survey had 500 
respondents.
    \14\ Ha'aretz, 19 June 1995.
---------------------------------------------------------------------------
    Lebanese opinion might overwhelmingly reject the occupation but it 
could do or say little; discussion of this issue within the country is 
taboo, so ``most outright opposition is confined to Lebanese abroad, 
unsigned Internet postings and quiet conversations.'' \15\ Here is an 
Associated Press report from mid-1997:
---------------------------------------------------------------------------
    \15\ Baltimore Sun, 10 February 2000.

          In private, Lebanese complain about Syria's hold on their 
        country and their lack of real independence. . . . But few are 
        publicly demanding that Syria immediately pull out its forces. 
        Part of it is fear of offending their stronger neighbor, known 
        as ``sisterly Syria'' in the Arabic tradition. ``Big 
        brotherly'' Syria would be more accurate.\16\
---------------------------------------------------------------------------
    \16\ Associated Press, 29 July 1997.

    Nonetheless, Lebanese opinion would spontaneously erupt on 
occasion. In the summer of 1997, the Syrian and Lebanese soccer all-
star teams played a semi-final game in Lebanon. In the course of the 
game, fans got into fights after the Syrians resident in Lebanon 
chanted, ``In spirit and blood we will redeem you Hafiz [al-Asad].'' 
Lebanese fans responded by calling on the withdrawal of Syrian forces 
from Lebanon. As tensions rose, the two sides began fighting until 
dispersed by the worried authorities.\17\ Students were arrested in 
Beirut in March 1999 for distributing leaflets that called for an end 
to the Syrian occupation. Leaders sometimes spoke their mind: ``All 
this talk about Syria's presence in Lebanon being a safeguard against 
Israeli aggression is a lot of trash,'' asserted Dory Chamoun, leader 
of a small Maronite party. ``We don't need Syria here to help us.'' 
\18\
---------------------------------------------------------------------------
    \17\ Al-Mashhad As-Siyasi, 9 August 1997.
    \18\ Inter Press Service, 8 October 1998.
---------------------------------------------------------------------------
    Such outspokenness notwithstanding, year after year the Syrian 
occupation of Lebanon persisted, almost without change. The situation 
was about as completely static as one can find in the contemporary 
world.
                          recent developments
    Suddenly, in recent weeks, two major changes have taken place. 
Together, these challenge the occupation as nothing has at least since 
1984.
    First, the abrupt Israeli pullback from south Lebanon changed the 
political landscape. The Syrians have since 1978 deflected criticism of 
their own occupation by pointing to the need to counter the Israeli 
security belt in the south. No matter how flimsy this justification, it 
did serve them well. Lebanese politicians, for example, endlessly 
repeated the mantra that Syrian troops must stay so long as Israel's 
occupation continued. When that later occupation ended in the early 
morning of 24 May 2000, so did the catch-all rationale for the Syrian 
armed presence. United Nations Resolution 520, which calls for the 
``withdrawal of all non-Lebanese forces from Lebanon,'' these days 
refers only to Syrian forces.
    Second, Asad's declining health was apparent for months and ended 
with his death on June 10. His gradual fade from the scene heartened 
those in Lebanon wanting to escape Syrian control. They saw his passing 
as the start of a struggle for power in Damascus that would reduce 
Syrian force projection, thereby giving the Lebanese more room to 
maneuver. They sensed that, absent his sure and ruthless hand, that 
control would likely be much reduced, and possibly even ended. Asad's 
death gave heart to all those in Lebanon who wish to see their country 
out from under the Damascene thumb.
    These two changes encouraged Lebanese patriots to speak out and 
demonstrate against the Syrian occupation. The opening salvo was on 23 
March 2000, when Jibran Tueni, chairman of the board and managing 
director of An-Nahar newspaper, wrote ``An Open Letter to Dr. Bashshar 
Asad'' in which he frankly informed the heir-apparent in Syria that 
``many Lebanese are neither at ease with the Syrian policy in Lebanon, 
nor the Syrian `presence' in Lebanon'' and then boldly declared, ``We 
are not a Syrian province.'' This unheard-of candor was quickly 
followed by a series of acts of resistance. In April, unknown 
assailants three times in three weeks threw sticks of dynamite at a 
compound housing 1,500 Syrian workers in southern Lebanon, an attack 
later claimed by a group calling itself Citizens for a Free and 
Independent Lebanon.
    In mid-April, small groups of protesters associated with former 
prime minister Michel Aoun boldly marched in front of the Justice 
Ministry one day and in front of the national museum and university the 
next, chanting anti-Syrian slogans such as ``Syria get out of here.'' 
\19\ On the third day, about one thousand demonstrators gathered at the 
Lebanese University and shouted out ``The Israeli army out, the Syrian 
army out and Lebanon first.'' \20\ Labor unions then followed with more 
demonstrations. Within ten days of these events, Syrian troops became 
less visible, redeploying from a dozen high-profile checkpoints--though 
of course government spokesmen denied any connection to the 
demonstrations. \21\ This appears to be the first-ever retreat by 
Syrian forces within Lebanon.
---------------------------------------------------------------------------
    \19\ Reuters, 17 April 2000.
    \20\ Agence France-Presse, 19 April 2000.
    \21\ For the fullest account in English of these demonstrations, 
see Gary C. Gambill, ``Special Report: Lebanon's Intifada,'' Middle 
East Intelligence Bulletin, April 2000, at http://www.meib.org, from 
which some of the following information derives.
---------------------------------------------------------------------------
    Various religious figures spoke their minds. The Maronite 
Patriarch, Cardinal Nasrallah Butros Sfeir, stated that if Lebanon 
``wants to control its future and for the Lebanese to regain their 
liberty, the Syrian troops must leave.'' \22\ More surprisingly, 
Archbishop Elias Audi of the usually docile Eastern Greek Orthodox 
Church spoke up on behalf of the student protestors to his congregation 
in a Palm Sunday sermon. Human rights groups in Lebanon got on the 
case. Even the Muhammad Mahdi Shams ad-Din, chairman of Lebanon's 
Supreme Islamic Shi'i Council, complained publicly that Lebanon has 
``no judicial branch in the full meaning of the word, enjoying full 
independence, immune from all other branches, and exercising 
autonomy.'' \23\
---------------------------------------------------------------------------
    \22\ La Croix, 6 June 2000.
    \23\ Speech to the Committee for Good Governance in Lebanon (CGGL), 
12 May 2000.
---------------------------------------------------------------------------
    Again pushing the outer limits of the possible, just two days 
before Hafiz al-Asad's death, Jibran Tueni wrote a scathing and 
sarcastic attack in his newspaper repudiating the logic the Syrian 
foreign minister used ``to defend the presence of Syrian forces in 
Lebanon.'' \24\
---------------------------------------------------------------------------
    \24\ AnNahar, 8 June 2000.
---------------------------------------------------------------------------
    Looking forward, I predict a hot summer in Lebanon; beyond that, I 
can anticipate the day when Lebanon will free itself of the Syrian yoke 
and again be a sovereign country.
                             u.s. responses
    Thanks to the Syrian dictator's cleverness, nearly the entire world 
acquiesced in his seizure of Lebanon--including our own Executive 
Branch. The White House and State Department during the Clinton years 
have never specifically called for Syria to withdraw, contenting 
themselves with a vague appeal on ``all foreign forces'' to leave the 
country.
    Though perfectly aware of it (as implied by the oft-repeated 
statement that the U.S. government ``remains dedicated to the goal of a 
fully sovereign and independent Lebanon, free of all foreign forces and 
able once more to take its rightful place among the nations of the 
world''), they prefer not to confront it.\25\ Their reasoning is 
simple: seeing Lebanon almost exclusively in the context of Arab-
Israeli negotiations, where it represents just an irritant, they do 
their best to pay it no attention. As a State Department official 
frankly explained to me some years ago, ``we constantly urge complete 
implementation of the Taif Accord [i.e., a withdrawal of Syrian troops] 
but it's not a bilateral priority. We've not condemned this [non-
implementation] very loudly because it needs to be resolved in the 
context of a comprehensive peace settlement.'' \26\
---------------------------------------------------------------------------
    \25\ One example of this relates to a June 25, 1997, hearing of the 
House Committee on International Relations on the topic of ``U.S. 
Policy Toward Lebanon.'' The committee had invited Michel Aoun, a 
particular nemesis of the Syrian authorities, to testify; as late as 
the day of the hearing itself, he was expected to appear. The State 
Department's refusal to provide him with a visa, however, preventing 
him from entering the country. This unusual step--perhaps the only time 
the Executive branch prevented a foreign witness from testifying before 
Congress--was apparently intended to placate sensibilities in Damascus.
    \26\ Telephone interview with Elizabeth Hopkins, desk officer for 
Syria, 10 November 1994.
---------------------------------------------------------------------------
    Worse, at times the Clinton Administration has endorsed the Syrian 
occupation: a report in December 1999 indicated that it ``appealed to 
prominent Lebanese politicians and opinion-makers to allow Syrian 
troops to remain in Lebanon'' after Israel pulls its troops out from 
the south.\27\ Likewise, a Beirut daily reported that ``U.S. Ambassador 
David Satterfield diplomatically `warned' these personalities not to 
count on an Israeli request for a Syrian withdrawal.'' \28\
---------------------------------------------------------------------------
    \27\ Middle East Newsline, 26 December 1999.
    \28\ Al-Mustaqbal, 22 December 1999. The Israelis, it bears note, 
apparently have not once raised the subject of ending the Syrian 
occupation of Lebanon in the course of their nearly decade-long 
negotiations with Damascus.
---------------------------------------------------------------------------
    The turmoil of recent weeks finds the Clinton Administration 
responding meekly. After the Israeli troop withdrawal, Martin Indyk, 
our ambassador to Israel, blandly called the Israeli troop withdrawal 
``a golden opportunity for the government of Lebanon to extend its 
authority down here to the border.'' \29\ During a meeting in Cairo 
with Syria's foreign minister, Secretary of State Madeleine Albright 
did not raise the issue of Syria's occupation of Lebanon; in public, 
she praised it: ``Syria has played a constructive role as far as 
Lebanon is concerned. We hope that they will continue to do so.'' The 
best she could do was avoid mentioning the Syrian troops by name and 
instead resort to the tired old formulation that ``all foreign forces 
should depart.'' \30\
---------------------------------------------------------------------------
    \29\ Ha'aretz, 31 May 2000.
    \30\ Reuters and Associated Press, 7 June 2000.
---------------------------------------------------------------------------
    Syria's authorities, not surprisingly, responded to this weak 
advisory by insisting on their right to stay put. Faruq ash-Shar'a, the 
Syrian foreign minister, explained: ``with all due respect, it is not 
in the interest of Ms. Albright to raise this issue. We are in Lebanon 
at the request of the Lebanese government and people and not with the 
blessing of the United States.'' \31\
---------------------------------------------------------------------------
    \31\ Lebanon Foundation for Peace, 7 June 2000.
---------------------------------------------------------------------------
    In contrast to the administration's record of collusion with the 
Syrian occupation, even encouragement of it, Congress has forthrightly 
and repeatedly condemned it: you voted unanimously in July 1993 to 
consider ``the Government of Syria in violation of the Taif 
agreement.'' \32\ In June 1995, a second, similar resolution (Sec. 
2712) passed the House. In June 1997, Rep. Eliot Engel's Amendment to 
H.R. 1986 concerning ``Sanctions against Syria,'' \33\ passed (by a 
vote of 410 to 15).
---------------------------------------------------------------------------
    \32\ U.S. Congress Concurrent Resolution 28, 1 July 1993.
    \33\ Unless the government of Syria eliminates ``its dangerous and 
destabilizing policies,'' the resolution urges the president to apply 
to Syria the same sanctions as those already in force against Iran and 
Libya since 1996.
---------------------------------------------------------------------------
    It is also encouraging to see that of late other voices have spoken 
up on behalf of the repressed Lebanese. Human rights groups have 
condemned the Syrian presence, as have major media. For example, the 
Boston Globe noted in an editorial that ``the freedom of Lebanon will 
require not only Israel's retreat from southern Lebanon but also a 
subsequent withdrawal of the 40,000 troops of Syria's occupation 
force.'' \34\ The Los Angeles Times concurred: ``One foreign army of 
occupation has left Lebanon. Now it's time for the second to do the 
same.'' \35\ My own organization, the Middle East Forum, has just 
published a study group report calling for an end to the Syrian 
occupation; \36\ I am pleased to report that Chairman Helms is a 
signatory of that report.
---------------------------------------------------------------------------
    \34\ 8 March 2000.
    \35\ 1 June 2000.
    \36\ Daniel Pipes and Ziad Abdelnour, co-chairs, Ending Syria's 
Occupation of Lebanon: The U.S. Role (Philadelphia: Middle East Forum, 
2000).
---------------------------------------------------------------------------
                             policy choices
    The U.S. government faces a fundamental choice vis-a-vis Lebanon: 
accept or contest Syrian domination there. Operationally, this 
translates into either working with or ignoring the puppet government 
of Lebanon.
    Work with the government: Recognize Emile Lahud as a real president 
and Salim al-Huss as a real prime minister, accept the 1998 municipal 
elections as legitimate, and acquiesce to rules established by the 
Syrian regime. Such a policy has the advantage of winning favor in 
Damascus and just possibly encouraging it to sign a peace treaty with 
Israel. But it disheartens natural allies of the United States in 
Lebanon and abroad; and it signals the world that while a blatant 
invasion such as Saddam's into Kuwait is not acceptable, a subtle one 
such as Asad's into Lebanon is tolerable.
    Ignore the government: The alternative is to denounce the Syrian 
occupation and ignore the governmental pseudo-structure in Beirut. This 
has the advantage of sticking with our friends and our principles; and 
of having bet on the winning side when the Lebanese do regain control 
of their country. It raises the danger of the U.S. government throwing 
its weight behind a force that today is on the losing side.
    To my mind, there is really no choice: our government must stand in 
solidarity with the oppressed and against the oppressors. Just as we 
supported Estonians and Czechs through their decades of Soviet 
domination, even when the prospect of their independence seemed 
impossibly remote, so we must stand by the Lebanese people in their 
hour of need. Nor is this only a matter of principle: Baltic leaders 
all agree on the importance of the U.S. government refusing to accept 
the Soviet occupation of their countries. Lebanese patriots one day 
will similarly thank us for standing with their people even as they 
faced the seemingly invincible might of the Syrian sword.
    There is also a practical reason for taking this step: as Gary 
Gambill (of the Middle East Intelligence Bulletin) notes, American 
support is vital if the Lebanese are to challenge their Syrian 
overlords. ``Whenever it appears that U.S. appeasement of Syria is 
waning, Lebanese civil society rises to the occasion to challenge 
Syrian hegemony. On the other hand, when the U.S. shows lack of resolve 
vis-a-vis Syria, the Lebanese refrain from open expressions of 
dissent.'' \37\ We are not just bystanders but, willy-nilly, we are 
actors in an important drama: public disapproval of the Syrian 
occupation will inspire Lebanese impatience and thereby help end it.
    Accordingly, I urge you to do all within your power to condemn and 
repulse the Syrian occupiers. Toward this end, Congress can take 
several steps.
    First, you can use your bully pulpit by sending a direct message to 
the tyrants in Damascus. Prior congressional resolutions, I can assure 
you, were much noted in Damascus. My favorite would be a six-word 
statement: All Syrian forces must leave Lebanon.
    Second, you can pressure the Executive branch to show some spine. 
In 1994, for example, Congress had a critical role in assuring that 
functionaries did not take Syria off the terrorism and narcotics lists.
    Third, Congress can close the ``national interest'' loopholes that 
permit the Executive branch to waive regulations, and which it seems to 
do disproportionately for Damascus. For example, you can extend to 
Syria the sanctions in the Iran-Libya Sanctions Act (which prohibits 
any investment of over $20 million a year in the petrochemicals 
sectors).
    Fourth, you can take initiatives such as funding a Radio Free 
Lebanon.
    Finally, so long as the Syrian occupation continues, turn away 
appeals for money for Lebanon that would go to the Syrian-controlled 
government (this includes the army) and appropriate funds only to 
credible private organizations and institutions.
--------------
    \37\ Private communication, 9 June 2000.

    Senator Brownback. Colonel, welcome back to the committee. 
We are happy to have you here as well a second time, and look 
forward to your testimony.

   STATEMENT OF COLONEL CHARBEL BARAKAT, SOUTH LEBANON ARMY; 
COORDINATOR OF THE CIVILIAN COMMITTEES, SOUTH LEBANON REFUGEES 
                           IN ISRAEL

    Colonel Barakat. Thank you. Honorable Senator, I want to 
thank you for inviting me as a witness today, and I want to 
thank you also for the statement you have made on May 24 about 
us, Lebanon. I have prepared a written statement which I would 
like to insert in the record. I will then make shorter remarks 
that will reflect the written testimony.
    Senator Brownback. We will accept your written statement 
into the record.
    Colonel Barakat Thank you.
    I, Colonel Charbel Barakat from Ain Ebel in South Lebanon, 
appear before your subcommittee for the second time in 3 years 
to address the dramatic developments which have taken place in 
my country as a result of the Israeli withdrawal of May 23, 
2000.
    On June 7, 1997, I appeared before this subcommittee to 
raise the issue of persecution of the southern Lebanese by 
Hizbollah, and the pro-Syrian regime. During that hearing, I 
warned against the dangerous consequences of what would happen 
to our community after Israeli withdrawal, if a solution is not 
found.
    Let me just note that as a result of that testimony back in 
1997, the regime in Beirut punished me by depriving me from my 
past wages and pensions which I had a right to as an officer of 
the Lebanese Army. That was the personal price I had to pay for 
testifying to the Senate.
    And today, as I come back to you as an exile, I do not know 
what will be my fate in the future if I testify to the truth.
    Many among the South Lebanese people went to exile after 
May 22, and they are refugees into Israel. Most of them remain 
in their villages and towns facing oppression which is slowly 
but surely developing into a systematic persecution.
    Over the past few months, in the media and in diplomatic 
circles, we wrongly described--this media and the diplomatic 
circles have wrongly described the history of South Lebanon. 
And I want to say that, first of all, the South Lebanese Army 
and our community were not the mercenaries of Israel, but 
allied to Israel.
    We are not traitors, but the defenders of a free Lebanon. 
We were not--we are the natives. The Syrian Army is a foreign 
occupation. We were the freedom fighters, and Hizbollah are the 
terrorists.
    Yet we, the Lebanese people, were crucified, and Hizbollah 
became the hero, and Syria a stabilizing power. Our land was 
occupied by pro-Iranian and pro-Syrian, and they called it 
liberation. Liberation from whom? Liberation from the Lebanese 
communities who worked 23 years defending their rights? But 
worse than the physical tragedy, was assassination of the 
truth.
    Mr. Senator, uprooting us from our land is a crime against 
us, but hiding the truth is a crime against you, and against 
humanity.
    I do not want to tell you more about the history of the 
South Lebanese area and South Lebanese Army because I am short 
of time, but I will focus on some points.
    From 1976 to 1982, we were isolated and bombarded. No 
country in the world assisted us, not even the United Nation's 
forces which were sent to monitor the Israeli withdrawal 
according to the U.N. Resolution 425.
    When Israel moved into Lebanon in 1982, we finally were 
able to travel to our capital and communicate with the rest of 
our country. Unfortunately, peace between Israel and Lebanon 
was assassinated. With the killing of President Ashir-Shunited, 
the killing of the U.S. Marines, and the massacre of the 
Christians in 1983-1984, and the consolation of the 17th of May 
agreement between Lebanon and Israel.
    In 1990, Syria invaded East Beirut. It was based on what 
they had called the Taif Agreement. This Taif Agreement, you 
have to know, and everybody has to know, that was--it never 
invited us as South Lebanese to be part of the Taif Agreement.
    While Syria invaded Lebanon, invaded East Beirut in 1990, 
and imposed the new regime, many Lebanese who opposed Syria 
including Prime Minister Sharonne, were forced into exile, and 
a new national reconciliation government was illegally formed. 
The government was supposed to end the war in Lebanon, and 
include all Lebanese, but we, the southern Lebanese were not 
invited.
    Moreover, that same reconciliation regime disbanded another 
major Christian party who opposed Syria, the Lebanese Forces, 
jailed its leader, and persecuted its followers as of 1994. 
Hizbollah became the only group allowed to keep its weapons.
    Since then, our community became the only enclave escaping 
the Syrian occupation and Hizbollah power. The war was being 
waged against us by the way of terrorism, killing, and 
kidnaping, under the slogan of fighting Israel.
    We fought for our land and our people, but we were fighting 
for the free world, as well. We were taking the--it is those 
who in the end are destroying Israel, and who belong to the 
same school as those who planted the bomb in the skies of 
Lockerbie and in Europe, and in Buenos Aires, and Dhahran, Dar 
es Salaam, and Nairobi.
    Our people in South Lebanon, Christian, Shiite, and Druse, 
the South Lebanon Army and the civilians decided to stay and 
resist, but there were few survivors.
    We asked the United Nations to talk with us, to mediate 
with Beirut, to send its troops to protect our enclave. We 
asked for us less than what they gave for Muslims of Kosovar. 
They turned a blind eye on our people. Whereas, you can avoid--
pressure Israel to dismantle the SLA, washing the U.N. hands 
from our blood.
    Mr. Senator, the SLA did not collapse. It was dismantled as 
a part of a political deal.
    On May 22 about 8,000 civilians, mostly children, fled into 
Israel. Those Lebanese citizens will not return into Hizbollah 
terrorism. Inside our villages, human rights groups have 
documented mass arrests, harassment, burning of houses, 
looting, destruction of socio-economic infrastructure, cutting 
off the world's supplies, alienation of national shrines, and 
psychologic terror. In some cases, abductions and killings 
occur.
    More than 1,500 were arrested. Instead of an amnesty, 
though, in the national reconciliation process, they are tried 
for high treason and sentenced to years in prison. In addition 
to their terms, those Lebanese villagers will be barred from 
returning to their homes for another 15 years.
    Now, Israel is inside its international borders. Hizbollah 
is in our villages. SLA controls all of Lebanon. Our community 
is under persecution. The Lebanese regime refuses to protect 
us, and the Palestinian army organizations are getting ready 
for a confrontation.
    Mr. Senator, injustice was done to the people of Lebanon, 
and we, the last free enclave were sacrificed to satisfy Syria 
and accommodate Hizbollah. But despite the tragedy we have been 
through, we still believe that the American people want justice 
for all other nations, particularly the smallest and the 
weakest.
    We strongly believe that the American people represented by 
the U.S. Congress will not accept that stability means the 
exodus of our community from its own land; that terrorists such 
as Hizbollah will be rewarded and our children will become 
refugees; that Kuwait should be freed from Saddam's army and 
Lebanon must remain occupied by Asad's army.
    We strongly believe that the U.S. Government must 
reevaluate the development in our area and initiate a new 
policy based on human values and human rights.
    Therefore, we strongly recommend the following: That the 
congressional delegation would form a fact-finding mission to 
the region, and meet with the refugees in Israel; that it will 
send representatives to investigate the situation inside our 
villages and towns in South Lebanon independent from Beirut's 
supervision; that the U.S. Congress will grant the exile 
population in Israel an emergency aid package to help them 
regather and cope with the difficult conditions; that the U.S. 
Government will use its influence with the various governments 
in the region to ensure the safe return of the refugees from 
South Lebanon to their homes, and to ensure a protected safe 
haven under U.N. auspices and the withdrawal of the Syrian Army 
from Lebanon; and that the U.N. will deny that area of 
Hizbollah, which must be disarmed as all other militias were; 
that the U.S. Government will use influence with the Lebanese 
regime to stop the persecution of the South Lebanese 
communities, issue an amnesty for all SLA members, release the 
political prisoners, repatriate the political exiles, and 
initiate a new and real reconciliation process in Lebanon; that 
the U.S. Government will use its influence to initiate the 
Syrian withdrawal from Lebanon, particularly that a new 
President is about to take over in Damascus; and at the end, 
that the U.S. Congress which has passed legislations in 
protection of religious minorities around the world over the 
past few years, will invite spiritual leaders, exiled 
politicians and those from the Lebanese Christian community to 
testify about the particular oppression this community has been 
under for over 10 years.
    I thank you again for the opportunity you offered me to 
express my point of view and to present the views of the exiled 
population of South Lebanon.
    Thank you.
    [The prepared statement of Colonel Barakat follows:]

             Prepared Statement of Colonel Charbel Barakat

    Honorable Senator Sam Brownback, dear members of the subcommittee:
    I, Colonel Charbel Barakat from Ain Ebel in South Lebanon appear 
before your subcommittee for the second time in three years to address 
the dramatic developments which have taken place in my country as a 
result of the Israeli withdrawal of May 23, 2000.
    On June 7, 1997 I appeared before this subcommittee to raise the 
issue of persecution of civilian populations in the southern Lebanese 
enclave which was then known as the ``Security Zone''--during that 
hearing, I testified about the situation of the Christian communities 
in that enclave, warning of potential existing and future threats. I 
also warned against the dangerous consequences of a combination of a 
unilateral Israeli withdrawal, a non-intervention by the United Nations 
and the deployment of Hizbollah forces in that area: Consequences which 
would affect the security and freedom of the local population, 
particularly the Christians, as well as the future of peace between the 
two nations of Israel and Lebanon.
    Let me just note that as a result of that testimony back in 1997, 
the regime in Beirut punished me by depriving me from my past wages and 
pensions I had right to. That was a personal price I had to pay for 
testifying to the U.S. Senate. A contribution to the cause of truth 
which testifies to the determination by the pro-Syrian regime in 
Lebanon to deny that same truth to the American people.
    And today, three years later, I report to you the developments that 
took place as of May 22, 2000 in South Lebanon and have affected the 
future of thousands of civilians. Many among them went into an exodus 
across the borders into Israel, and most of them remained in their 
villages and towns facing escalating oppression, which is slowly but 
surely developing into a systematic persecution.
    In order to offer my insight and my live testimony, I will have to 
correct some of the misperceptions and facts about the South Lebanon 
enclave, the will of its population, the reality of its self-defense 
force, and its future aspirations. Then I will make a few suggestions 
and recommendation for the United States policy in that area.
         i.--historical background of the south lebanon enclave
    Over the past few months and weeks, many in the media and in 
diplomatic circles have wrongly described the history of the South 
Lebanon enclave known as the ``Security Zone''--and erroneously 
portrayed the South Lebanon Army (SLA). That portrayal of the local 
population and its self defense force has not only legitimized the 
assault on that area, but also the abandoning of its population by all 
those responsible for its security and future on both sides of the 
borders. In sum, the people of South Lebanon, who for 23 years, have 
defended their identity and rights within the confines of their 
enclave, were forced to either flee or submit to an authoritarian 
regime and a new occupation. But worse than the physical tragedy was 
the assassination of the truth, a fact which is increasing the chances 
of transforming the ongoing persecution into a change in and so threat 
to the ethnic makeup of that area.
A. South Lebanese Defense Force 1976-1979
    In order to validate Hizbollah's takeover of the southern enclave 
of Lebanon, it was said that the SLA was a proxy militia of Israel 
created to assist the Israeli occupation of South Lebanon. Not only the 
Hizbollah and the pro-Syrian regime in Beirut have stressed this 
equation, but also the United Nations.
    However the facts contradict this theory. The SLA was organized by 
local Lebanese officers and soldiers of the Lebanese Army and a handful 
of armed civilians as of 1976 in order to defend their villages against 
the PLO and the various radical groups who attempted to dominate the 
area during the Lebanese civil war. Those mostly officers and 
civilians, with the knowledge of the Lebanese Government, then formed 
the Lebanese Defense Forces in South Lebanon, one of the multiple 
militias of the Lebanon war. Note that on August 14, 1976, Lebanese 
Army Commander General Hanna Said issued ordinance number 3860 ordering 
the Lebanese officers and soldiers in that enclave to form military 
units to defend that area from the PLO and other militias. Short of any 
ideological or regional agenda, their aim was simple: To defend their 
villages and towns until the Lebanese Army would come to their rescue. 
They were headed by Major Saad Haddad who was officially in contact 
with the Lebanese Ministry of Defense until 1979. The Lebanese 
Government, not yet under Syrian control, paid the salaries of this 
force until the 1980s. Since 1976, this free enclave was continuously 
under PLO and pro-Syrian assaults. All routes of communications to 
Beirut, and to the main hospitals and socio-economic centers were cut 
off. The civilian population, abandoned by the central government was 
in jeopardy. As of 1977, the local militia established contacts with 
the Israeli military across the border to insure medical and logistical 
support. Therefore, the SLA was initially launched as a native 
paramilitary force made up by Lebanese officers and local villagers, 
mostly Christians, to resist the takeover by foreign forces mainly 
Palestinians and Syrians.
B. The Free Lebanon Army 1979-1985
    In 1978, the Christian enclaves were able to link up with each 
other as a result of the withdrawal of the PLO and allied forces in 
front of the Israeli Litani operation. During its withdrawal, the IDF 
remitted a number of ex-PLO positions to their Lebanese allies. In 
1979, that local militia was named the ``Free Lebanon Army.'' The 
Lebanese State severed its relationship with its command. For another 
four years, the FLA operated as a local militia formed by native 
villagers and aiming at defending their area against PLO, pro-Syrian 
and Islamist militias. Such as did the Lebanese Forces and other 
militias in central and northern Lebanon, and such as did the Lebanese 
Army brigades during the Lebanese war, the FLA was struggling for the 
defense and the survival of its enclave. While dozens of other militias 
and Army units became the allies of Syria, Iran and the PLO, the FLA 
chose to become the ally of the State of Israel. From 1976 and until 
1985, the South Lebanon enclave was not an extension of Israel's 
military, although it acted as and believed in the alliance with the 
Jewish and democratic state. It faced forces such as the Hizbollah and 
Syrian Nationalists, which acted as allies of Syria.
C. The South Lebanon Army
    During the Israeli invasion of June 1982, the FLA moved further 
north toward the areas evacuated by its opponents (Sidon), as did the 
Lebanese Forces and the Lebanese Army in the center of the country. In 
1984, after the death of Major Haddad, General Antoine Lahad, a high 
ranking officer of the Lebanese Army was appointed at the suggestion of 
former President Camille Chamoun as commander of the FLA. At the 
request of the Israelis, the name of the militia was changed to South 
Lebanon Army (SLA) and it started receiving direct military training 
from the IDF. The future of that force was to be negotiated with the 
Lebanese government. When Israel withdrew southwards in 1985, the SLA 
made its own decision to remain in the Christian district of Jezzine. 
It made that decision in the aftermath of anti-Christian massacres, 
which took place after previous Israeli withdrawals from the Shuf, 
Iqlim al-Kharrub, and East Sidon districts (1983-1984). Here again, the 
deployment in the Jezzine district was a national decision made by the 
SLA command to protect the native population from massacres and not an 
Israeli decision.
    As of 1995, the South Lebanon enclave was called the ``Security 
Zone'' by the Israelis. That area fell under a dual control. On the one 
hand, the IDF and SLA controlled a band of territory stretching from 
the Port of Nakura as far as the Syrian borders. In Jezzine, only the 
SLA was in control.
    Therefore, it appears clearly from the historical background that 
the SLA and its predecessors the FLA and the LDF, were not other than 
(Christian-led) Lebanese organizations, which fought in the defense of 
their enclaves. Furthermore, the SLA-FLA were founded by on-duty 
Lebanese Army officers as of 1976, paid by the Lebanese government 
then, and their rank and file were local and native Lebanese citizens 
from the villages and towns of that area.
         ii.--the political rights of the south lebanon enclave
    At a time when the various militias and groups in Lebanon were 
invited to national political reconciliation and while Hizbollah was 
left armed after the end of the war in 1990, the pro-Syrian regime in 
Beirut continued to wage a war against the enclave under the slogan of 
``elimination of pro-Israeli militias.'' And while pro-Syrian and pro-
Iranian organizations were armed and protected by the Beirut regime and 
by Syria, the SLA was considered as an enemy and was never invited to 
any negotiations with the government. Even those Christian forces, 
which were associated with the national reconciliation process known as 
the Taif Agreement, (such as the Lebanese Forces), were gradually 
eliminated from the political scene between 1991 and 1995.
    It is important to note that neither the SLA nor the people of 
South Lebanon were invited to participate in the Taif agreement process 
in 1989, hence were never consulted as to the future of their country. 
Note also that neither the SLA nor the people of the enclave were ever 
invited to any form of dialogue or discussion of the future of their 
area with the Lebanese government or the United Nations.
    Therefore, it is a fact that the communities of the southern 
enclave in Lebanon were never consulted as to their fears, demands or 
future aspirations. It is also a fact that while the pro-Syrian regime 
and its allies from Hizbollah engaged in a decade-long war against the 
SLA and the Christian population of South Lebanon, most Western 
Governments and the United Nations did not attempt to mediate in the 
conflict, and sided with the oppressive pro-Syrian regime in Beirut 
against the enclave.
    In contrast with the populations of Kosovo, East Timor and the 
Palestinians, the population of the southern enclave was never given 
the opportunity to express their will and aspirations. For although in 
alliance with the State of Israel, the SLA had never been allowed or 
able to produce political representation and the various world 
governments refused to grant them that opportunity. When the Israeli 
unilateral withdrawal took place, those populations were at the mercy 
of Hizbollah and the pro-Syrian regime in Beirut.
                    iii.--how did the enclave fall?
    The American people were allowed to hear two versions of the fall 
of South Lebanon. The first version is the one of Hizbollah and the 
pro-Syrian regime. According to their claim, they compelled the 
Israelis to pullout from the security zone by way of force. And because 
of Israel's withdrawal, the SLA had no choice but to collapse. 
According to the Western version, Israel decided to withdraw 
unilaterally but had to hasten its pull out because of a sudden 
collapse of the SLA. But according to the young men and women of the 
SLA and the people of that region, the enclave fell because the local 
population was never given the right to express themselves or the right 
to defend themselves.
A. South Lebanon's Options
    Last July, Israel's government decided to withdraw from our area 
even in the absence of state agreements or international arrangements. 
The unilateral withdrawal was a decision made by the Israeli 
government, which assumed sole responsibility for its decisions. 
However the fate of our enclave facing the threats by Hizbollah and the 
regime, as well as the future of this community were disregarded by all 
parties. To the Beirut regime and the radical Islamists, the southern 
enclave community was nothing but ``agents and collaborators.'' To the 
Israeli government the SLA was a military force ``hired'' among locals 
to serve their security interests. To the Western world this community 
was made up of Lebanese citizens who had to be ``returned'' to their 
government irrespective of their fears.
    No guarantees were negotiated by any party on behalf of the 
endangered community, Hizbollah threatened to butcher the 
``collaborators,'' the Lebanese Government issued 20,000 warrants for 
arrest, and the United Nations asked for the dismantlement of the SLA 
as a main condition for intervention after Israel's withdrawal. Israel 
stated it would extend political asylum to SLA personnel. It is 
dramatic to realize that no party offered to mediate between the local 
community and the regime in Beirut. Our population had two options: 
Either surrender to Hizbollah and the pro-Syrian regime or flee in an 
exodus into Israel.
B. South Lebanon's Real Decision
    However, I am here today to inform the U.S. Congress and the world, 
that our community had decided to resist and remain on its own soil, 
while calling on the international community for assistance. In April, 
the SLA's commander, after consultation with his officers, declared his 
intention to remain after Israel's withdrawal. During the same month, 
the Civilian Committees which represent the people of the villages and 
towns, from Christian, Druse and Shiite backgrounds, also declared 
their intention to defend themselves while calling on the international 
community to help mediate.
    During the month of May 2000 our people remitted a memorandum to 
the office of the United Nations in Nakura in south Lebanon offering 
suggestions to avoid bloodshed and exodus. During the same month 
delegations representing our community met with diplomats of the U.S., 
U.K., and French embassies in Israel and at the United Nations. And on 
May 18, our representatives met with the office of the Secretary 
General of the United Nations in New York. We warned against offering 
our villages and towns to Hizbollah and the pro-Syrian militias after 
Israel's withdrawal due to take place before July 7.
    We offered to transform the SLA into a local municipal police to 
operate under U.N. auspices as are the cases in Kosovo and East Timor. 
We offered to establish a local municipal authority to be 
democratically elected and which would manage the daily lives of the 
citizens of that zone until a comprehensive solution could be reached 
with the several governments of the region. And we committed to 
transfer the area gradually to the Beirut authorities as progress was 
being made in alleviating the Syrian presence in the capital and in 
disarming Hizbollah, the two sources of our fears.
C. Rejection of Our Rights and Fears
    Instead of taking our demands for protection on our land seriously, 
the United Nations declined to assist us, acting against all 
international law, and particularly in contradiction with Chapter seven 
of the Charter. The United States, U.K. and France dismissed our fears 
and insisted on guarantees, which were allegedly granted by the Beirut 
regime. The State of Israel only prepared for our potential exodus, 
ruling out our determination to remain on our land and defend 
ourselves. The Beirut pro-Syrian regime rejected national 
reconciliation with our people, rejected amnesty and committed to 
eliminate our political freedoms. Hizbollah's leaders made public 
statements about killings, even if the SLA were to flee into Israel and 
beyond.
D. The Last Days
    Despite the abandonment by the international community and against 
all odds, our people decided to remain and fight for their land and 
rights while calling endlessly on the U.N. to deploy its units around 
our villages. On May 22, 2000, and as Israeli units were implementing 
their own withdrawal and the commander of the SLA was absent in France, 
the mostly Shiite sector of the security zone collapsed. It appeared 
that Shiite officers were told by the Israelis that they must leave 
before the borders closed. Even after the invasion of Hizbollah of this 
area, the mostly Christian-Druse eastern enclave and the Christian 
western enclave, decided to defend themselves and protect their 
citizens after Israel's withdrawal.
    On May 23, 2000, at 8 p.m., SLA officers in the western sector 
received orders from the Israelis to leave their posts as Hizbollah was 
advancing toward their villages. Thus, the SLA was imploded from the 
inside and was dismantled without any battle. The main reason why the 
SLA did not remain and fight was the fact that the border was closed 
behind its back. Without access to medical and logistical supplies, our 
people were condemned either to surrender to its enemy or flee across 
the border. Our community was not allowed to defend itself or to be 
protected by the U.N. on its own land. The only choices, which were 
left, were the exodus toward Israel's refugee camps or the exodus 
towards Beirut's jails.
                           iv.--consequences
A. Consequences of the Abandonment on our Community
    As a result of the collapse of the enclave, major consequences 
pertaining to the security, freedom and future of an entire community 
unfolded.
    (1) More then seven thousand civilians, including hundreds of SLA 
officers and soldiers fled through the Lebanese-Israeli borders into an 
exodus toward the unknown. Inside Israel they were joined by hundreds, 
maybe thousands of Southern Lebanese who were working in Israel. In our 
estimates, more then ten thousand residents of the enclave have fled 
either to Israel or to other destinations. To those refugees, who left 
their homes, belongings and properties behind, this is a cataclysmic 
dimension. Not only were they abandoned by the international community, 
but also they have no official cause recognized as such.
    (2) More then 1,700 members of the SLA surrendered to the Lebanese 
authorities and to Hizbollah. Many of those who surrendered to 
Hizbollah haven't been identified yet. As for those who surrendered to 
the Beirut regime, they were sent to military courts, which are 
identifying them as ``collaborators'' and not as militiamen or as a 
resistance group which belonged to a war faction, as was the case with 
other groups in Lebanon. Lebanese human rights groups are criticizing 
the poor standards of human rights used by the Beirut authorities while 
dealing with these political prisoners.
    (3) As for the civilians who remained in their villages, they were 
and are still submitted to all sorts of harassment, oppression, 
arbitrary arrests, and ultimately in some documented cases, to murder 
and physical harm. Lebanese and other human rights groups have reported 
clearly that systematic suppression and oppression are taking place in 
the Christian areas of the former security zone.
    (4) Widespread looting and destruction of infrastructure, including 
water supplies, have been and are still reported. Many villages have 
witnessed the exodus of the majority of their residents.
    By our standards, that is for a population of 100,000 people, the 
exodus of about 10,000, the arrest and military trial of 2,000, the 
issuing of warrants for the arrest of 20,000, and the ongoing 
persecution of our villages and towns are considered a catastrophe.
B. Consequences of the Abandonment to a Radical Force on our Area
    As a result of the Israeli withdrawal and of the dismantling of the 
SLA, Hizbollah and pro-Syrian forces invaded the area and occupied it. 
The ex-enclave, which was free from radical forces and Syrian influence 
until last month, is now under their military occupation. This will 
have serious consequences aside from the humanitarian and national 
tragedies affecting our community.
    (1) Hizbollah is a ``radical militia with a long record of hostage 
taking, assassination of diplomats, killing of U.S. forces, bombings 
domestically and internationally, and above all the massacre of 
Christian civilians in Jezzine, Qolaia and the rest of the enclave over 
almost two decades. A group which is cited by the U.S. State Department 
as a terror organization. Its leadership has repeatedly and openly 
threatened killings and massacres of whomsoever would obstruct their 
agenda. Hizbollah has vowed to destroy Israel, in alliance with Hamas 
and Islamic Jihad, and has pledged to Islamize Lebanon, which would be 
at the expense of its Christian communities and other moderate Muslims. 
Offering the Southern area of Lebanon to Hizbollah is a grave mistake.
    (2) For 23 years the borders between Lebanon and Israel were open, 
and economic, social, and educational, as well as other ties were 
established between our people and the people of Israel. As soon as the 
Israelis withdrew and the SLA was dismantled, and after the refugees 
crossed the border, both Israelis and Hizbollah shut down all gates. 
Instead of open borders, closed frontiers. Instead of exchange and 
trade, enmity and isolation. It is hard to believe that shutting down 
gates, and closing borders will help peace in the region. Instead of 
seeing Lebanese workers crossing into northern Israel to their daily 
jobs, we see Hizbollah's partisans exploding their hate of the Jews and 
throwing rocks against Israeli soldiers and civilians. That is not a 
step forward toward peace.
    (3) Furthermore, by dismantling the Lebanese-Israeli peaceful 
border and replacing it with Hizbollah's supporters, radical 
Palestinians are moving toward the area from the various camps in 
Lebanon, threatening to re-ignite the armed struggle against Israel. 
Let us note that the conflict started in Lebanon 25 years ago, when 
Palestinian militias attempted to occupy that border area in order to 
attack Israel. Surrendering this enclave to Hizbollah will bring back 
the most radical Palestinian forces and therefore will be responsible 
for a new conflict in the area.
                             v.--reactions
A. The Lebanese Government Reaction
    The Lebanese regime, which is under Syrian control, acts from pro-
Syrian perspectives. Up until this present date it has not sent the 
regular army to replace Hizbollah and to disarm it. Our population is 
at the mercy of Hizbollah and of pro-Syrian militias. Under such 
circumstances, the refugees will not go back to their homes, and the 
local residents will remain under terror and repression from radical 
militias. Moreover, in the absence of regular troops, militias may 
perform mass abuse. The situation is extremely critical.
B. The United Nations
    Despite our repetitive calls and memorandums to the United Nations 
to deploy in our areas, the organization's top offices and its envoys 
refused to acknowledge the existence of a ``crisis.'' To U.N. envoy 
Teri Larsen, it is perfectly normal that Hizbollah occupies the area 
and terrorizes its population, and that the SLA was dismantled. It 
seems normal that about 10,000 residents including women, children and 
the elderly went into exile. The U.N. officials have acted against 
their mandate to preserve peace, protect civilian populations, and have 
breached international law by not assisting an endangered community. 
The U.N. has a force of about 6,000 soldiers in South Lebanon. It 
prefers using them in administrative missions such as painting yellow 
lines to mark the international border, instead of posting units within 
and around the areas at the mercy of a radical militia.
C. Radical Forces
    Hizbollah and its pro-Syrian allies have pledged to punish all 
those who have ``cooperated'' with the Israelis, i.e., the majority of 
the population in that enclave. This was clearly illustrated by a 
speech of Hizbollahs leader who said his militia will ``slaughter the 
SLA men and women in their beds.'' In addition to terrorizing them, 
Hizbollah forces are disrupting vital socio-economic infrastructure, 
such as water supplies, schools, and medical centers, under the pretext 
of dismantling what was built with the help of Israel. Hizbollah 
leaders have even called on their associates of Hamas and Islamic Jihad 
to assassinate members of the ex-SLA within Israel itself.
                  vi.--conclusions and recommendations
    In view of the above facts we cannot but conclude that the South 
Lebanon community, which was isolated because of a civil war and denied 
its political rights by the current pro-Syrian regime in Beirut, was 
punished for defending itself and for believing in popular and cultural 
peace across the border for the last quarter of a century.
    This community was never heard, its aspirations never legitimized 
and its security and freedom never guaranteed. The international 
community did not listen to its fears prior to the Israeli withdrawal, 
and did not recognize its tragedy after it unfolded.
    Moreover, the native SLA was demonized as ``collaborators'' and 
``mercenaries'' while Hizbollah was upgraded and rewarded.
    In sum our people in South Lebanon lives out a human tragedy today. 
Thousands of its youth, including young children, have gone into exile, 
the remaining residents live in fear and under oppression. Our socio-
economic infrastructure is being dismantled. The Lebanese government 
and the United Nations have so far refused to protect our community 
inside our villages. And we fear that the worse has yet to occur.

    Mr. Senator, Dear Members:
    Practically the South Lebanon community moved from under one 
occupation to another. What was portrayed as ``the liberation of South 
Lebanon from Israeli occupation by resistance movements,'' was also the 
extension into South Lebanon's enclaves of pro-Syrian pro-Iranian 
forces. In sum we, the native population of South Lebanon, were not 
liberated, but forced to leave. Those who stayed behind are not free 
but under oppression. And worse, our cause as refugees and oppressed is 
not even recognized by the international community.
                            recommendations
    In view of my testimony, and on behalf of the refugee population in 
Israel and abroad and the oppressed communities inside our area, I 
would like to suggest the following recommendations to the U.S. 
Congress:
    (1) We urge the U.S. Congress in particular and the American 
government in general to investigate the fate of the population of 
South Lebanon after the Israeli withdrawal and the invasion by 
Hizbollah. We call on you to send representatives to inquire about 
their situation, to interview them, to listen to their concerns and to 
establish those facts personally. I urge the U.S. Senators and invite 
them to visit the refugee centers in Israel and to visit our villages 
in South Lebanon. That visit must be objective and neutral and not 
altered by local officials.
    (2) We urge the U.S. Government to grant a special humanitarian aid 
to the refugees in Israel to enable them to be absorbed momentarily 
until conditions change in Lebanon, enabling them to return. That 
special aid must include funds for schools, social aid and creation of 
jobs.
    (3) We urge the U.S. government formally to ask the United Nations 
to use its already existing units, the UNIFIL, to deploy within and 
around the towns and villages, which were targeted by Hizbollah and 
persecuted by pro-Syrian forces.
    (4) We urge the U.S. Government to pressure the Lebanese regime to 
stop persecuting the South Lebanon community and to engage in a 
dialogue for national reconciliation. We ask the U.S. Government to 
intervene directly in that process, as it has done in several areas in 
the world.
    (5) We urge the U.S. Government to assist the Lebanese people in 
general to free their country from Syrian occupation, which by all 
standards is responsible for most of the country's tragedies. We call 
on the U.S. Government to ask Syria to initiate its full withdrawal 
from all of Lebanon and to ensure that free and new elections occur in 
Lebanon, under U.N. sponsorship, which would help Lebanon's society 
express its will and aspirations.
    (6) We particularly call on the U.S. Congress to hold hearings 
about the fate of the Lebanese Christians in particular, as an 
endangered community in the Middle East and assess ways and means to 
enable this community to survive as the international community did for 
the Bosnian Muslims, the Kosovar Muslims and the Palestinians. I urge 
you to call on this community's spiritual leaders, political exiles and 
intellectuals to testify about the oppression of their community.
    I thank you again for the opportunity you offered me to express my 
point of view and represent the views of the refugee population from 
South Lebanon,

    Senator Brownback. Well, thank you, Colonel, for taking us 
up on this opportunity at a great personal sacrifice to 
yourself, financially at first, and in other ways that you are 
suffering as well. So I deeply appreciate your willingness to 
put yourself on the line in doing this and being here to share 
your thoughts. They are very good, thoughtful, concise, and 
specific of what we can do.
    Dr. Pipes, let me start with some questions for you. What 
is your assessment of the future of Hizbollah at this point in 
time? Do you think they will recreate themselves into a 
political party? Do you think they will continue down that 
terrorist road? What is your view? What is Hizbollah moving 
toward and to do?
    Dr. Pipes. Thank you, Mr. Chairman. Hizbollah aspires to 
rule in Lebanon, either through violence or through the 
political process.
    What began as a fairly marginal operation depending on the 
use of violence has grown over the past two decades to the 
point that it can rely less on violence and more on the 
political process.
    Hizbollah has had considerable success in the political 
arena and has shown intelligent flexibility. For example, just 
in the last few days since the occupation of South Lebanon, it 
has not engaged in out-and-out ethnic cleansing, but it has 
done something much more subtle, which is to ruin the 
infrastructure so that the people of South Lebanon have to 
leave.
    This approach has served Hizbollah well. It is the victor 
now over the Israeli forces. It claims victory, though the 
Israelis dispute it. I agree with Hizbollah. It won; Israel 
lost. Its prestige has soared in the last month, and I believe 
that Hizbollah is going to become a yet greater force.
    As that happens, its interests and those of the Syrian 
overlords will clash. There could be room at that point for 
others to maneuver. But until now, the Syrians and the 
Hizbollah movement have worked quite well together.
    Senator Brownback. So do you anticipate a clash between 
those two in the near term?
    Dr. Pipes. I do, yes, Mr. Chairman, thought I do not know 
about the near term. As the Hizbollah increases in force and in 
ambition, its interests could well be on a collision course 
with the Syrian occupying forces.
    Senator Brownback. What do we know about Bashshar Asad? 
What is his potential for turning Syria into a more democratic 
modern state?
    Dr. Pipes. Before answering your question directly, it is 
worth noting that the developments in Syria are very unusual. 
What we have here is a revolutionary regime merged with a 
monarchy. That does not happen often. The only precedent I know 
of is North Korea. Romania was heading down that track, but it 
did not happen. In North Korea very interestingly, in just the 
last few days, we saw real flexibility resulting from this 
peculiar marriage of revolution and monarchy.
    There is a fundamental illegitimacy to the process; a 
revolutionary regime is not supposed to use monarchical means. 
One simply does not know what the consequences will be, but I 
venture to suppose the chances are much greater for radical 
change.
    Had it been another revolutionary apparatchik who has taken 
over in Damascus, things likely would have stayed on the same 
track. But Bashshar is a prince--someone from a different 
generation, a very different path to power, a different life 
experience--and I think the chances of change are therefore 
much greater.
    Bashshar Asad is, as was noted earlier, 34 years old. Until 
just 6 years ago, he was a student in London studying eye 
surgery. Apparently, he decided he was not going into the 
family business, but with the death of his elder brother in 
January 1994, he was recruited into that business.
    He has been a fast study. He has had military training and 
political training. He is apparently, from what we can tell, 
doing a rather good job. He was to be given an important 
position just a week after his father's death intervened.
    Bashshar has taken several audacious steps, and nothing 
less is necessary, for he has been thrust into the maelstrom of 
Syrian political life. It is not something for the faint-
hearted. Bashshar is a rookie; we do not know his capabilities.
    Overall, I am hopeful that within the context of Syrian 
political life--which has long been totalitarian, brutalized, 
and impoverished--that the fresh face and fresh approach of 
Bashshar Asad could lead to good things.
    If he fails to control the government, if the rivalries 
among the grandees of the old regime explode, it could also 
lead to dangers. There could be violence within Syria and even 
outside it.
    So this is a dangerous time, but overall I am optimistic 
that things could go well.
    Senator Brownback. Because we did not have much chance that 
things were going to go well under the father, I mean that he 
ruled with such an iron hand for so long a period of time, you 
are basically betting on that the son is just of a different 
generation, and the mind set might be something more open 
minded toward growing Syria economically and less of the 
militaristic rule.
    Dr. Pipes. Right. Under the father, one found a situation 
of stasis, ossification in the extreme. I mean, rarely in human 
affairs does one see a country that simply has stopped in the 
way Syria did in the last decade.
    And that is due to the father's very narrow assessment of 
what his concerns were, which were to stay in power and to pass 
on that power as, in fact, he has quite well done so far in the 
last few days. Everything was seen through the prism of regime 
maintenance, staying in power. Nothing else mattered.
    Senator Brownback. Passing the estate onto the next 
generation.
    Dr. Pipes. Exactly. Now that that seems to be happening, 
the next generation is not quite so focused on the same narrow 
scope of concerns. This is pure speculation--we only have wisps 
and rumors of information about Bashshar--but he appears more 
willing to take chances, to lessen the regime's grip on the 
country that his father needed.
    Senator Brownback. What should the administration--you 
listed a number of things that you thought were items that the 
Congress should take on. How would you rate what the 
administration has done to date given the twin aspects of the 
pullout in South Lebanon by the Israelis and the change in 
Syria, toward Lebanon?
    Dr. Pipes. American policy for some years placed the Arab-
Israel peace process above all else. Everything outside this is 
a potential sacrifice. Anything perceived as impinging on that 
process, is to be pushed away.
    I think that is a mistake. Resolution of the Arab-Israeli 
conflict is obviously a very important and desirable goal. But 
it is not the only goal. We must keep an eye on such other 
problems as totalitarian role in Syria, the Syrian threats 
until a year and a half ago against Turkey, and the Syrian 
occupation of Lebanon. These are legitimate and important 
problems as well, and should not be shoved aside simply because 
they do not help the peace process.
    Our Government has had a very special attitude toward the 
Syrian regrime because of its negotiations with Israel. I mean, 
it is of a kind with its peers in Iraq, Libya, North Korea, and 
Cuba. It is a rogue regime; even U.S. Government documentation 
agrees with that.
    But our Secretaries of State, even our President, have gone 
to Syria. They never go to Tripoli, Tehran, or Baghdad, but 
they go to Damascus fairly often because of the attempt to 
bring Damascus into the process and encourage it to engage in 
diplomacy with Israel. I think that too is a mistake.
    Totalitarian governments do not respond to cajoling and 
encouragement. They respond to worries and threats, as we saw 
in 1998 with Turkey. The Turks for 10 years cajoled the Syrians 
in an attempt to resolve their serious problem with Syrian 
sponsored terrorism. From 1987 to 1998, they cajoled, saying in 
effect, ``Please, pretty please, pay attention to our problem 
and stop making trouble for us.'' It did not work.
    And finally, in 1998, the Turks threatened the Syrians with 
retribution. They said, ``If you do not stop this, you will be 
in big trouble.'' And you know what? Within 2 weeks, the 
problem was closed down. I think that is the way one deals with 
a regime like Hafiz al-Asad's.
    One does not send the Secretary of State to the funeral of 
a totalitarian thug. We did not send her to Kim Il-Jong's 
funeral. She should not have gone to President Asad's funeral. 
This is not appropriate for us.
    We should take a much tougher stand. We should indicate to 
the totalitarian rulers that we do not like what they are 
doing, and that engaging in negotiations with Israel is fine 
but does not push the other problems aside.
    Now all that being said, the situation has changed in the 
last few days. There is a potential for more maneuvering and 
more subtlety today because of a new regime. But, I still worry 
about a mind set that places total priority on Arab-Israeli 
negotiations.
    Senator Brownback. Colonel, you heard Dr. Pipes talk about 
the type of persecution and pushing out of the citizenry taking 
place in South Lebanon by Hizbollah that is not the direct, if 
I am correctly stating Dr. Pipes, killing of a number of 
individuals but more destruction of infrastructure.
    Is that your information and what you are receiving from 
your people on the ground in South Lebanon of the type of 
persecution, the type of destruction, of living conditions that 
is occurring?
    Colonel Barakat. Yes. Last week, we received information 
that they had put some explosives, a bomb, in a pump, water 
pump between two villages, and they put some explosives around 
the water cisterns for the whole area. About 12 villages take 
their water from this big cistern.
    It did not explode because there was--you know, we had some 
connections where the U.N. came and we had a talk with the 
journalists, the television people who came there and they 
could not blow it up.
    But it is one of their plans to destroy such kinds of 
infrastructure. Also, they have threatened to blow up all the 
buildings which Israel had built before, such as schools and 
clubs and everything, to help the people to stay there.
    As I say, it is a sign of the Israeli occupation, so they 
have to get rid of, and they want to blow it up. They did the 
same thing in Mahajreel, they blew up the place of the 
martyrs--we have a place to remember our martyrs--they blew it 
up. Those kind of things, they are doing.
    Senator Brownback. But they have not actually done that, 
confessed to blowing up these facilities; is that what you are 
stating?
    Colonel Barakat. They blow up the bomb. They could not blow 
up the cistern.
    Senator Brownback. And the other buildings that have been 
threatened----
    Colonel Bakarat. The other buildings they threaten to blow 
up. As of now, they did not blow them up.
    Senator Brownback. I guess that what I hear both of you 
saying is that really now is a key time for the world community 
to focus on events taking place, particularly in South Lebanon 
because of the public pressure, that the Hizbollah will be 
watching kind of what their image is internationally at this 
point in time.
    Would you agree with that, Dr. Pipes?
    Dr. Pipes. I certainly would.
    Senator Brownback. Then I hope we can take note of that and 
that the Congress can call yet again for Syria to pull all of 
its occupying troops out of Lebanon. It has been a consistent 
position here, and it should be stated clearly and not one that 
we will walk away from because time has lapsed and memories are 
short, and we just do not continue to remember that here is a 
state that is being occupied by a foreign power, and that that 
should not continue. The United States should not abet that 
occurring.
    Thank you both for joining us. Thank you all for attending 
the hearing. I think it is instructive and we are at a moment--
but hopefully, better can occur from this point forward.
    The hearing is adjourned.
    [Whereupon, at 11:15 p.m., the hearing was adjourned.]

                              ----------                              


             Additional Statement Submitted for the Record


           Prepared Statement of Lebanese Information Center

    This testimony is offered on behalf of the Lebanese Information 
Center (LIC), a nonprofit organization, which aspires to raise 
international awareness to the plight of the Lebanese people. The 
Lebanese Information Center (LIC), which established chapters 
nationwide with several hundred members, Americans of Lebanese Descent, 
enjoys a large support base and reflects the views of thousands of 
Lebanese worldwide. The LIC welcomes the chance to bring before the 
Committee on Foreign Relations the concerns of its members and to offer 
policy recommendations taking heed of the United States' interest in a 
peaceful democratic and sovereign Lebanon. The LIC is willing to 
provide all the factual studies the center produced thus far.

    The state of affairs in Lebanon today is a matter of great concern 
to all Lebanese, in the country and abroad. Occupied, burdened with a 
drained economy, and transformed into a satellite state to a 
neighboring country Syria, Lebanon, the only democracy amongst the Arab 
Nations, is fading away. In this testimony, we will offer you an 
overview of the Syrian's hegemony over Lebanon and the ramifications of 
this dominance over its political, social, and economic lives. We will 
at the end offer policy recommendations that could serve the interest 
of both countries, Lebanon and the United States as well as serve the 
peace process initiative to ensure a lasting peace in the region.
    Syrian troops started to infiltrate Lebanon since 1973 to support 
armed Palestinian factions. In 1976, Syria's presence in Lebanon was 
legitimized when it became part of the Arab Deterrent Force (ADF) 
established by the Arab League. After the collapse of the ADF and 
despite the numerous requests for its departure from Lebanon starting 
with the presidency of Elias Sarkis in late 1970's leading to the Taif 
Agreement in early 1990's, Syria managed to stay in Lebanon by 
installing a puppet government to legitimize its presence. The request 
for a Syrian withdrawal started with late President Elias Sarkis who 
sent a formal letter to the Arab League in June 1981 requesting the 
withdrawal of armed Syrian forces from Lebanon. Late President elect 
Bashir Al-Gemayel demanded the withdrawal of all foreign armed forces 
from Lebanon prior to his assassination in September 1982. In September 
1983 former President Ameen Al-Gemayel sent a formal letter to Syrian 
President Hafiz Al-Assad requesting to withdraw Syrian troops from 
Lebanese territories. On March 14, 1989 General Michel Aoun, acting 
Prime Minister for the Transitional Government in late 1980's formally 
demanded a Syrian withdrawal from Lebanon. The last attempt was with 
the Taif agreement, which dictated a redeployment of Syrian troops to 
the Bekaa Valley within two years as a prelude to a complete withdrawal 
from Lebanese territories. None of these requests were respected nor 
acknowledged and Syria remained as an occupied force in Lebanon. For 25 
years, every aspect of Lebanon's political, economic and social lives 
has been altered due to Syrian occupation and Lebanon became a 
classical example of a satellite State in a world that came to respect 
freedom and value sovereignty.
             how is lebanon functioning as a shadow state?
    On a political level, Syria holds a firm grip on the Lebanese 
decision-making process thus hindering a true representation of 
Lebanon's National Interest. Its policy of manipulation is setting the 
ground for a perception that Lebanon would fall apart in the event that 
Syria withdraws and that civil war would resume. The Syrian Foreign 
Minister Farouk al Sharaa made a statement a few days ago while on a 
diplomatic visit to Egypt stating that the presence of Syrian armed 
forces in Lebanon is to prevent a sectarian war that may erupt in the 
event of a Syrian withdrawal from Lebanon. Such comments caused uproar 
in the Lebanese community and called to question President Emile 
Lahoud's declaration of a true coexistence and reconciliation 
initiative amongst the Lebanese.
    Syria dominated the political process in Lebanon by implanting 35 
thousand armed soldiers and several thousand intelligence personnel on 
three-quarters of Lebanese territories. They serve to spread fear 
amongst the residents and ensure the loyalty of those who chose to 
collaborate rather than to resist. Political opposition was disbanded, 
leaders were jailed, killed and exiled and a puppet government was 
installed to serve its interest and execute its agenda. The 
ramifications of this political situation constituted a direct 
violation to Lebanon's freedom provided by its constitution. Those 
violations varied from political authorities appointed by Syria, to 
fraudulent elections, to a Judiciary subjected to political pressures, 
to arbitrary arrests, human rights violations and abuses, to self 
imposed censorship on media and freedom of expression.
    Another political ramification of the Syrian hegemony is present in 
the refusal of the Lebanese Government to deal with the armed 
Palestinian elements in the camps. According to UNRWA, there are 
372,700 Palestinian refugees in the camps, which are the host of 
radical armed groups calling for the resumption of the military 
struggle for the liberation of Palestine. The Lebanese Government also 
refused to send the Lebanese Army to South of Lebanon after Israel 
withdrew allowing for armed militias to take control. Hizbollah took 
over along with other pro-Syrian militias that were supposed to have 
been disarmed in 1991 according to the Taif agreement such as Amal, 
Syrian Social Nationalist Party, The Progressive Socialist Party, the 
Lebanese Communist Party and others.
    On the social level, Lebanon suffered from high emigration, 
displacement and demographic alteration. According to official 
statistics issued by the Deputy Chairman of the Board of Development 
and Construction Dr. Boutros Labaki, the number of Lebanese that 
permanently emigrated away from Lebanon between 1991 to 1997 (after the 
war ended) is 820,000. Also, quoting a study published by a Lebanese 
Newspaper, Al-Safir, 19,000 Lebanese emigrated every month in the 
recent year. Those numbers are extremely high given the fact that the 
population of Lebanese residents is three and a half million.
    Despite the fact that many committees were formed to deal with the 
issue of the displaced in Lebanon, a solution to the problem was never 
in sight. Just recently, 7,500 southerners fled their villages after 
the Israel withdrawal for fear of retribution. Many left to Israel 
while others immigrated to various countries around the world.
    Lebanon also witnessed a major demographic alteration for political 
reasons. In 1994, the government issued a decree (N-5247) allowing the 
naturalization of around 450,000 individuals. Of those, 27,000 were 
Palestinians and 12,000 were Arab gypsies. (Study prepared by Nemat 
Allah Abi Nasr.) This decree increased, in one round, the population of 
Lebanon by 10%. The newly naturalized had to pay the favor with their 
votes.
    On the economic level, Lebanon is on the verge of collapsing. 
According to the Economic Release presented by Dr. Marwan Iskandar in 
1999, the national debt at the end of 1998 reached $18.3 billions of 
which 77% are in Lebanese pounds and 23% in foreign currency. The 
State's budget displays a record deficit of 59.3%. The Lebanese economy 
also suffers from a freeze in domestic and foreign investment, high 
inflation, high unemployment rate and a record high of foreign labor, 
over a million Syrian workers in Lebanon are exempted from paying taxes 
and the regime has recently provided them with all the benefits of 
social security. According to Dr. Mohsen Salim, in his conference at 
The Holy Spirit University--Kaslik on 29/11/99, we can describe the 
Syrian workforce in Lebanon as ``The Economic Implantation.''
             what can the united states do to help lebanon?
    Some American officials questioned how can the American Government 
ask the Syrians to leave Lebanon when the Lebanese Government calls for 
the Syrian presence in Lebanon. There is a truth to this claim but how 
can we rely on the statements of a puppet regime that is not elected by 
the people nor represent their will? Expecting the Lebanese Government 
to ask for a Syrian withdrawal from Lebanon is like expecting the 
Government of Babrak Karmal to ask the Soviet Union to withdraw from 
Afghanistan in late 1980's.
    The United States has been a leading force in assuring the survival 
of democracies around the world. It held the torch of liberty and paid 
a heavy price to ensure that nations across continents are free. 
Lebanon, with its democratic institutions will face a dead end unless 
the United States takes the necessary measures to help:

  <bullet> Implement the United Nations Resolution 520, which calls for 
        the withdrawal of all foreign armed forces from Lebanon. The 
        United States can exercise pressure on Syria through 
        withholding economic aid and other means to force its retreat 
        from Lebanon.

  <bullet> Find an alternate solution for the Palestinian refugee 
        problem in order for peace to rein in the region. Lebanon 
        cannot absorb the large number of Palestinian refugees for 
        demographic, economic and social reasons.

  <bullet> Implement the provisions afforded by the Taif Accord 
        pertaining to national Reconciliation. This process would be 
        realized through maintaining free elections, providing for a 
        healthy and democratic political life, and allowing political 
        leaders to return to the political arena either from jail or 
        from exile.

    Lebanon deserves to be free, sovereign and independent in a world 
that has confirmed its commitment to such principles. Lebanon, an 
entity in this New World Order, expects nothing less but an equal 
chance.


</pre></body></html>
